<html>
<title> - MEASURING BORDER SECURITY: U.S. BORDER PATROL'S NEW STRATEGIC PLAN AND THE PATH FORWARD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                MEASURING BORDER SECURITY: U.S. BORDER 
            PATROL'S NEW STRATEGIC PLAN AND THE PATH FORWARD

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2012

                               __________

                           Serial No. 112-88

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
77-802                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     7

                               Witnesses

Mr. Michael J. Fisher, Chief, Border Patrol, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11
Ms. Rebecca Gambler, Acting Director, Homeland Security and 
  Justice Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Marc R. Rosenblum, Specialist in Immigration Policy, 
  Congressional Research Service:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article, Houston Chronicle.....................................    65


MEASURING BORDER SECURITY: U.S. BORDER PATROL'S NEW STRATEGIC PLAN AND 
                            THE PATH FORWARD

                              ----------                              


                          Tuesday, May 8, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, McCaul, Duncan, Cuellar, 
Thompson, and Jackson Lee.
    Mrs. Miller. The Committee on Homeland Security, the 
Subcommittee on Border and Maritime Security, will come to 
order. The subcommittee is meeting today to examine our Border 
Patrol's new strategic plan. We have a great lineup of 
witnesses today.
    But before we begin talking about our border, I think it is 
appropriate for this subcommittee to acknowledge the 
extraordinary professionalism and work that happened with the 
FBI and the CIA in regard to foiling this recent bombing plot 
that was happening in Yemen.
    I would say one thing that is very, very clear to all of us 
is that the war on terror is not over. We have so many enemies 
of freedom that are bent on attacking this Nation. I think, 
again, Americans can be comforted by the fact that we have such 
high vigilance and so many professional folks in all our 
agencies. We are going to hear from a number of them today. But 
they are working on the front lines each and every day to 
protect us, protect Americans against the enemies of freedom.
    One of the things that is incumbent on us as a Congress is 
to make sure that we provide these individuals at the various 
agencies with the tools that they need, the resources that they 
need, the training that they need to be able to stop a plot 
such as we saw here, as is becoming clearer of some of the 
various things that happened. But being from the Detroit area 
where the underwear bomber, Christmas day bomber, almost blew 
up about 300 folks over my hometown several years ago, we 
always need to be ever-vigilant, of course.
    But, again, on behalf of the committee, subcommittee, 
certainly the entire committee, I think we all are very, very 
thankful that this plot was stopped.
    Today our subcommittee is going to be talking, as I said, 
about the Border Patrol's new strategic plan. Our witnesses 
today are Chief Fisher of the U.S. Border Patrol; Rebecca 
Gambler, who is the Director of Homeland Security and Justice 
section within the GAO; and Marc Rosenblum, who is a specialist 
in immigration policy from the Congressional Research Service. 
We welcome them all. I will make the formal introductions after 
the opening statements.
    Clearly, along the enumerated powers of the Congress, 
providing for the common defense, which is actually in the 
Preamble of our Constitution, gives this committee the 
authority and responsibility to ensure that we do secure our 
Nation's borders. How we determine that or measure that and 
what a secure border actually looks like has been the subject 
of much of this subcommittee's work during this Congress.
    The U.S. Border Patrol recently released an updated 5-year 
strategic plan. It is the first updated strategy since 2004. 
This new strategic plan is intended to mark a shift in focus 
from being resource-based to risk-based, focusing resources on 
the greatest border threats that we face. Principal themes for 
the new strategic plan are information, integration, and rapid 
response, all of which are very important aspects to consider 
as we work to secure our border.
    The Border Patrol certainly has to make the best use of the 
resources that Congress provides to it and be poised to respond 
quickly if conditions change, which they always are evolving 
and changing. I certainly want to say that I am very encouraged 
that the Border Patrol decided to update this strategy to 
reflect the reality that we face on the border today.
    But I am a bit concerned that the 2012 to 2016 Strategy 
lacks a tangible way to measure our efforts on the border, and 
we are going to be exploring that today. The new strategy I 
think is absent in an emphasis on proven techniques, such as 
defense-in-depth, which makes full use of interior checkpoints 
to deny successful migration, which was a key facet of the 2004 
Strategy, yet it is not mentioned at all in this new strategic 
plan, so I am sure there will be a question on why that was not 
included.
    Basing operations and patrolling using the best 
intelligence to inform how and where agents patrol is smart, 
and the new strategy rightly focuses on using information to 
better secure our borders. But intelligence is an imperfect 
tool, and some degree of randomness should be incorporated to 
keep drug cartels or what have you from finding holes in our 
defenses or watching and tracking our patterns.
    The most important question I think in many minds is: How 
do we know if this new strategy is working, and so how can we 
measure it? The Border Patrol's previous National strategy, 
again released in 2004, was predicated on the concept of 
gaining and maintaining miles of operational control. That sort 
of became the de facto term of art, if you will, that indicated 
how much or how little of the border the Border Patrol could 
effectively control. However, it is clear that the Department 
of Homeland Security is backing away from the use of that term, 
``operational control,'' in its absence in this strategy.
    In 2010, the Department really stopped reporting to 
Congress the number of miles of border under operational 
control, and, to date, we have not been supplied with an 
alternative measure to replace this operational control matrix. 
Performance measures, such as the number of apprehensions, as 
noted by the GAO in their testimony, are really not adequate to 
measure border security progress. I think as I have said and 
many Members of this subcommittee have said often in the past, 
we are open to a new, more robust standard if it supplements 
operational control and if it better describes the level of 
security at the border. But when we hear terms like ``the 
border is more secure than ever,'' well, that may be so, but 
how do you measure that, by what? That is what we are really 
looking for.
    Conditions along the Nation's border continue to evolve. It 
is clear we need to have an agreed-upon measure to understand 
progress, as I say, or lack thereof. The border is certainly a 
much different place now than it was in 2004, and Congress, of 
course, has invested in doubling the size of the Border Patrol, 
building hundreds of miles of fence, utilizing new technology 
such as the unmanned aerial vehicles, the UAVs, that this 
subcommittee and the full committee have had many hearings 
about. However, as the GAO has noted, all of these elements 
were also prevalent in the 2004 Strategy, so, again, we will be 
interested in learning what is different or new in the 2012 
plan.
    As mentioned in the new strategic plan, the Department is 
working on something called the Border Condition Index, the 
BCI, which is supposed to be an objective measure to inform and 
to matrix our border security efforts. We have heard some 
reports that the anticipated new standard is running into some 
delays, maybe it is unworkable. Again, I think we will be eager 
to hear how that is all happening.
    Using apprehensions as a measure of progress tells us an 
incomplete story, really. There are a number of reasons why I 
think migration across our border is down. Certainly, our 
efforts are one of the components, but the economy has been 
weakened; drug cartels make trying to cross the border a 
dangerous endeavor for many that were trying; and, certainly, 
changing demographics. All of these things are critical 
elements that play a role in the reduced number of illegal 
aliens who are crossing the border or attempting to cross the 
border.
    I say that by not taking away for a moment from the work 
that the Border Patrol has done. I think our enhanced 
enforcement efforts and the introduction of significant 
consequences, such as prosecution for multiple crossers and 
smugglers, have made a tremendous difference. At the same time, 
I think we obviously can't be complacent, as the number of 
illegal aliens crossing in places such as the Rio Grande Valley 
sector in Texas have recently increased, actually, which is 
bucking the National trend.
    So we have called on the Department of Homeland Security to 
produce a comprehensive strategy to secure the border that 
informs the Congress and the American people of the resources 
that are needed to make that a reality. I certainly hope that 
the forthcoming implementation plan will indicate what a secure 
border looks like and provides us a pathway to get there.
    I also want to mention it is the 88th anniversary, 
actually, of the founding of the U.S. Border Patrol. That is 
going to be later this month. Over that time, the men and women 
in green have served our Nation in such an extraordinarily 
remarkable and professionally well-executed way. On behalf of 
this committee, I certainly want to commend all of the men and 
women of the Border Patrol for the work that they have done 
over the last decade, as well, the last 88 years, but certainly 
since 9/11 and since we have really started to focus on our 
border in a much more intense way. They have just done an 
extraordinarily professional job for all of us.
    So I look forward to hearing from the witnesses today on 
how this change in strategy will move the ball forward to make 
for a more secure border.
    [The statement of Mrs. Miller follows:]

           Prepared Statement of Chairwoman Candice S. Miller
                              May 8, 2012

    Among the enumerated powers of the Congress, providing for the 
common defense gives this committee the authority and responsibility to 
ensure that we secure the Nation's borders.
    How we determine, or measure, what a secure border looks like has 
been the subject of much of this subcommittee's work this Congress. 
This hearing will continue the subcommittee's oversight in this area.
    The U.S. Border Patrol recently released an updated 5-year 
strategic plan, the first updated strategy since 2004. According to 
Border Patrol leadership, the new Strategic Plan is intended to mark a 
shift in focus from being ``resource''-based to ``risk''-based, 
focusing resources on the greatest border threats.
    The principal themes for the new strategic plan are information, 
integration, and rapid response--all important aspects to consider as 
we work to secure the border. The Border Patrol has to make the best 
use of the resources this Congress provides and be poised to respond 
quickly if conditions change.
    I want to say at the outset that I am encouraged that the Border 
Patrol decided to update this strategy to reflect the reality we face 
on the border today, but I am concerned that the 2012-2016 Strategy 
lacks a tangible way to measure our efforts on the border.
    I would like to highlight the absence of proven techniques such as 
defense-in-depth, which makes full use of interior checkpoints to deny 
successful migration, which was a key facet of the 2004 Strategy yet it 
is not mentioned at all in the 2012 Strategic plan. I will be 
interested to hear why that was not included.
    Basing operations and patrolling using the best intelligence to 
inform how, and where, agents patrol, is smart, but intelligence is an 
imperfect tool and some degree of randomness should be incorporated to 
keep drug cartels from finding holes in our defenses, or watching and 
tracking our patterns.
    Border Patrol's previous National strategy, released in 2004, was 
predicated on the concept of gaining and maintaining miles of 
operational control.
    It became the de facto term of art that indicated how much or how 
little of the border the Border Patrol could effectively control.
    However, it is clear that the Department of Homeland Security is 
backing away from the use of ``operational control'' given its absence 
in this strategy.
    In 2010, the Department stopped reporting to Congress the number of 
miles of border under operational control, but to date has not supplied 
an alternative measure to replace operational control. Performance 
measures such as the number of apprehensions, as noted by GAO in their 
testimony, are not adequate to measure border security progress.
    As I have said before, I am certainly open to a new, more robust 
standard if it supplements operational control and better describes the 
level of security at the border, but we cannot merely take the 
Secretary's word that the border is more secure than ever.
    Conditions along the Nation's border continue to evolve and its 
clear we need an agreed-upon measure to understand progress, or lack 
thereof. The border is a vastly different place than it was in 2004 
because Congress invested in doubling the size of the Border Patrol, 
building hundreds of miles of fence, and utilizing new technology such 
as unmanned aerial vehicles.
    However, as the GAO has noted, all of these elements were also 
prevalent in 2004 Strategy, so I will be interested in learning what is 
different or new in the 2012 plan.
    As mentioned in the new strategic plan, the Department is working 
on something called the Border Condition Index which is supposed to be 
an objective measure to inform our border security efforts.
    However, I have heard reports that the anticipated new standard is 
running into delays, and may even be an unworkable measure. So, I am 
eager to hear how this Congress and the American people can adequately 
judge progress on border security in the interim.
    Our economy is fragile, drug cartels make trying to cross the 
border a dangerous endeavor, and changing demographics all play a role 
in the reduced number of illegal aliens who cross the border.
    That is not to take away from the work the Border Patrol has done--
I'm certain that our enhanced enforcement efforts and the introduction 
of significant consequences, such a prosecution for multiple crossers 
and smugglers have made a difference.
    But I want to caution that we should not become complacent as the 
number of illegal aliens crossing in places such as the Rio Grande 
Valley Sector in Texas have recently increased, bucking the National 
trend.
    I have called on the Department of Homeland Security to produce a 
comprehensive strategy to secure the border that informs the Congress 
of the resource needs to make that a reality. My hope is that the 
forthcoming implementation plan will indicate what a secure border 
looks like and provides a path to get us there.
    The 88th anniversary of the founding of the U.S. Border Patrol will 
take place later this month and over that time, the men and women in 
green have served our Nation well.
    On behalf of this committee, I want to commend the men and women of 
the Border Patrol for the work they have done over the last decade to 
make our border more secure, but we cannot cede an inch to drug 
cartels, human traffickers, smugglers, and potential terrorists.
    I look forward to hearing from the witnesses today on how this 
change in strategy will move the ball forward toward a more secure 
border.

    Mrs. Miller. At this time, I would recognize our Ranking 
Member, the gentleman from Texas, Mr. Cuellar, for his opening 
statement.
    Mr. Cuellar. Thank you so much, Madam Chairwoman, for 
having this meeting. I am glad that we are here to examine the 
Border Patrol's recently released strategic plan.
    I have long believed that border security is a core element 
of the Department of Homeland Security. After the terrorism 
attacks of September 11, 2001, Congress made providing the 
resources necessary to secure that. We learned a lot from what 
happened on September 11, 2001, and we certainly want to make 
sure that we secure our land, air, marine, maritime borders, 
make sure that is a top priority for all of us.
    As a result, the number of Border Patrol agents patrolling 
America's border has more than doubled. As of last month, there 
were 21,328 Border Patrol agents.
    Chief Fisher, I think you all just recently had your 1,000 
graduating class, and congratulations on that.
    Additional resources also allow for expanded border 
infrastructure such as fencing and technology such as mobile 
surveillance units. The U.S. Border Patrol refocused its 
priorities in response to 9/11 while remaining committed to its 
traditional duties of preventing illicit trafficking of people 
and contraband between our official ports of entry.
    To that end, the Border Patrol released its first National 
strategic plan in March 2004. That plan provided the framework 
for the on-going acquisition and deployment of personnel, 
technology, and infrastructure resources along our Nation's 
border. In the intervening years, the Border Patrol has 
continued to grow and has only recently begun to level off its 
expansion.
    This is a very appropriate time for the agency to set forth 
a new strategic plan which seeks to assure the new Border 
Patrol is as effective and efficient as possible. Indeed, in 
order to best utilize Border Patrol's workforce and advanced 
technology, the agency has developed a risk-based strategy, 
which, again, is something that--just like the Chairwoman and I 
were interested in measures, because at the end of the day we 
want to see, if you put X amount of dollars into an agency, 
what are the results, how do you measure results? This is 
something that we certainly, working with all the folks here, 
we want to make sure. Trying to find the right results can be 
difficult, I understand that, but we appreciate all the work 
that you all have been doing to make sure that we focus on 
results.
    The new strategic plan is focused on identifying high-risk 
areas and flows and targeting the response to meet those 
threats. Cooperation is also key to the 2012 Strategy as it 
would serve as a guide in the overall efforts of CBP, another 
agency within DHS, to ensure progress continues on our borders. 
The 2012 Strategy also builds on a strong relationship with 
Mexico and Canada as it relates to border management and 
security.
    I am hopeful that today's discussion will help us gain a 
better perspective not only of where Border Patrol is today but 
also on the future direction of the agency. I am also 
particularly interested in finding out how Border Patrol will 
continue to build on the strong relationships with its State 
and local counterparts on the Southern Border.
    Chief, you and I have talked about the importance of making 
sure that they are all working, because we can't do it by 
ourselves, we have to involve the States and, of course, the 
local governments. I appreciate all the work that you are doing 
in that effort.
    Living on the Southern Border has given us a first-hand 
knowledge of the challenges facing the region and the 
importance of providing not just the tools necessary to enhance 
border security but also a sound plan to get us there. I am 
also interested from our witnesses about how they believe we 
can get to that point.
    I want to thank Chairwoman Miller for having this meeting 
but also for the field hearing, for allowing us to be down 
there in my hometown of Laredo. Congressman Mike McCaul was 
there. We got to see the work that has been done, not only the 
ports of entry, but we also got on the boats and went up and 
down the Rio Grande.
    We want to thank you, Chief, for the work that you all are 
doing in providing that type of work down there.
    So I want to thank all the witnesses for joining us here 
today. With that, I yield back. Thank you, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman for his comments. We 
heard excellent reports about your field hearing there, and 
Chairman McCaul and Mr. Cuellar as well. So I thought that was 
an excellent, excellent, excellent effort on all of your 
behalf, and I appreciate your service to do such a thing.
    Mr. Cuellar. Thank you.
    Mrs. Miller. The Chairwoman now recognizes the Ranking 
Member of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for any statements that he may have.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    I welcome our witnesses here. Some I have seen one or two 
times in the past. I am looking forward to your testimony.
    I have long encouraged the Department of Homeland Security 
to develop a comprehensive strategy for securing America's 
borders. It is still my hope that the Department will do so. 
While not a Department-wide strategy, I am pleased that the 
U.S. Border Patrol has developed a new plan, the Border Patrol 
Strategic Plan 2012 to 2016, to guide the agency over the next 
4 years.
    With the support of Congress, the Border Patrol has 
experienced unprecedented growth over the last decade in terms 
of both personnel and resources. As the Ranking Member of the 
subcommittee has already indicated, the number of Border Patrol 
agents has more than doubled over the last decade, from over 
10,000 in 2002 to over 21,000 today. DHS has also added 
hundreds of miles of pedestrian fencing and vehicle barriers in 
that time, with about 650 miles in place along the Southwest 
Border today. Furthermore, DHS has deployed additional 
technology and equipment to the borders, including mobile 
surveillance systems, cameras, and UAVs.
    Given these sweeping changes, it seems necessary and 
appropriate for the Border Patrol to set forth a new strategy 
based on current realities. That said, the Border Patrol's 
strategic plan is a relatively brief document compared to the 
breadth and depth of the mission before the law enforcement 
agency. I look forward to hearing more details today from Chief 
Fisher about the strategic plan and how it will be implemented 
in the near term and in the coming years.
    I do have some initial thoughts on the plan, however. One 
of the concerns I have expressed during prior oversight 
hearings on the rapid growth of the Border Patrol was the need 
to ensure proper training and supervision of less experienced 
agents. I was pleased to see that the strategic plan gives 
consideration to supporting the men and women of the Border 
Patrol and ensuring that the agency matures as an organization.
    The strategic plan also discusses the Border Condition 
Index, BCI, which the Border Patrol is developing to replace 
operational control as a metric for measuring border security. 
We are told that the new BCI is intended to capture a more 
comprehensive picture of border conditions, including border 
security, public safety, and quality of life. It is my hope 
that the BCI will truly offer a better indicator of the 
situation along the border and is not just a case of finding a 
new ruler when you do not like the first measurement. I look 
forward to hearing more detail about the BCI at this hearing 
and once the new system is implemented.
    I thank the witnesses for joining us today and yield back 
the balance of my time.
    Mrs. Miller. I thank the gentleman for his comments.
    Other Members of the committee are reminded that opening 
statements might be submitted for the record.
    First of all, Michael Fisher. Chief Fisher was named the 
chief of the U.S. Border Patrol in May 2010. Chief Fisher 
started his duty along the Southwest Border in 1987 in Arizona. 
He successfully completed the selection process for the Border 
Patrol Tactical Unit in 1990 and was later selected as the 
field operation supervisor for the tactical unit. Following 
this, he served as a deputy chief patrol agent in the Detroit 
sector and as an assistant chief patrol agent in Tucson, 
Arizona.
    Rebecca Gambler is an acting director in the U.S. 
Government Accountability Office's Homeland Security and 
Justice team, where she leads the GAO's work on border security 
and immigration issues. She joined GAO in 2002 and has worked 
on a wide range of issues related to homeland security and 
justice, including border security, immigration, and DHS 
management and transformation.
    Marc Rosenblum is a specialist in immigration policy at the 
Congressional Research Service and an associate professor of 
political science in the University of New Orleans. Dr. 
Rosenblum is the author of ``The Transnational Politics of U.S. 
Immigration Policy'' and the co-editor of ``The Oxford Handbook 
of International Migration.'' He has also published over 40 
academic journal articles, book chapters, and policy briefs on 
immigration policy and U.S.-Latin American relations.
    So we welcome all of the witnesses.
    The Chairwoman now recognizes Chief Fisher for his 
testimony.

  STATEMENT OF MICHAEL J. FISHER, CHIEF, BORDER PATROL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Chief Fisher. Chairwoman Miller, Ranking Member Cuellar, 
and other distinguished Members of the subcommittee, it is 
indeed a privilege and an honor to appear before you today to 
discuss the work that U.S. Customs and Border Protection does 
in securing America's borders.
    May 28, 2012, will mark the 88th birthday of the United 
States Border Patrol. As this day approaches, I am reminded of 
how Western author Louis L'Amour defined the term ``riding for 
the brand'' as a compliment or an expression of loyalty to a 
cowboy's outfit. For 88 years, the men and women of the United 
States Border Patrol have been riding for a unique and 
particular brand. Since the days of the mounted watchmen who 
rode the borderlands of the Southwest, the Border Patrol has 
done no less than protect and defend this country's borders. As 
L'Amour wrote, ``If a man did not like a ranch or the way they 
conducted their affairs, he was free to quit. And many did. But 
if he stayed on, he gave loyalty and expected it.'' For 88 
years, the men and women of the Border Patrol have stayed on, 
giving their loyalty to their mission and this Nation.
    Since May 28, 1924, the U.S. Border Patrol has responded to 
an ever-changing and maturing Nation as it recognized the need 
to curb the influx of people and contraband entering its 
borders. As the Nation evolved, so did the job. During the 
Prohibition era, inspectors pursued liquor smugglers in the 
mountains of Arizona. As World War II raged in Europe and Asia, 
Border Patrol inspectors scanned the Atlantic horizon for enemy 
submarines off the coast of Florida. The Cold War found Border 
Patrol personnel on board domestic airline flights, serving as 
U.S. air marshals. During the civil rights movement, the U.S. 
Border Patrol joined U.S. Marshals to enforce Federal law by 
protecting James Meredith as he registered as the University of 
Mississippi's first African American student. In the wake of 
Hurricane Katrina, Border Patrol agents responded to help 
victims and restore order. During the reconstruction of Iraq 
and Afghanistan, agents stepped up across the ocean to bring 
security and support.
    Whether dealing with the problem of illegal immigration or 
facing the threat of international terrorism, Border Patrol 
agents have done their job with vigilance, integrity, and 
pride. The threats have changed over the years, but the basic 
mission remains unaltered. Defending and protecting our 
Nation's borders is the Border Patrol's brand--a brand that is 
as important today as it was in the past.
    This month, as we take increased devotion from our past to 
carry out our great task of securing America's borders, it is 
altogether fitting and proper that I am here to discuss the 
Border Patrol's future through the 2012-2016 Border Patrol 
Strategic Plan.
    The border is a very different environment today than when 
I began my career. I have personally witnessed the evolution of 
the border over the past 25 years, both in terms of additional 
resources applied against the threat as well as the change in 
the adversary's tactics. The Border Patrol Strategic Plan 
builds on the foundation of the 2004 National Strategy. The 
2004 Strategy focused on getting the Border Patrol organized 
and resourced through the unprecedented deployment of 
personnel, technology, and infrastructure. Our 2012-2016 
Strategic Plan involves a set of objectives, strategies, 
programs, and initiatives that apply information, integration, 
and rapid response to develop and deploy new and better 
tactics, techniques, and procedures to achieve our strategic 
objectives.
    The principal theme of our strategy is to use information, 
integration, and rapid response to meet all threats. These 
pillars are essential as we continue to build upon an approach 
that puts the Border Patrol's greatest capabilities in place to 
combat the greatest risks.
    First, information provides situational awareness and 
intelligence developed by blending things such as 
reconnaissance, community engagement, sign cutting, tracking, 
and technology to enable Border Patrol agents to get ahead of 
the threat.
    Second, integration denotes our comprehensive planning and 
execution of border security operations that leverages 
partnerships to ensure we bring all available capabilities and 
tools to bear in addressing threats.
    Last, through rapid response, we will deploy capabilities 
timely and effectively to meet and mitigate the risks we 
confront. Put simply, rapid response means the Border Patrol 
and its partners can quickly and appropriately respond to 
dynamic threats.
    Our strategy has two interrelated and interdependent goals. 
Goal No. 1 is to secure America's borders. The Border Patrol 
will work to achieve this goal by preventing terrorists and 
terrorist weapons from entering the United States, managing 
risk, disrupting and degrading transnational criminal 
organizations, employing a whole-of-Government approach, and 
increasing community engagement.
    First, the current risk environment is characterized by a 
variety of constantly evolving threats, and the Border Patrol 
must harness information and intelligence to ensure that 
operations are focused and targeted against potential terrorist 
threats and transnational criminal organizations. The Border 
Patrol's ability to prevent and disrupt such threats is 
enhanced through increased information sharing and operational 
integration, planning, and execution with our domestic and 
foreign law enforcement partners.
    Likewise, developing and deploying the best possible 
information and intelligence is critical to assessing and 
managing risk. The Border Patrol's capabilities must continue 
to adapt to ensure that resources are being used effectively 
and efficiently.
    For example, the Border Patrol employs a tactical strategy 
known as change detection capability, which uses various 
techniques to gather situational awareness in low-threat areas. 
Change detection capability allows the Border Patrol to 
continue focusing other capabilities on areas where the highest 
risk exists but ensures that any threat adaptation is 
identified quickly.
    In addition to assessing the threat and risk, the Border 
Patrol must continue to develop its mobile response capability 
to quickly redeploy scaleable capabilities to the highest-risk 
areas. Through targeted enforcement against the highest-
priority threats and the expansion of programs that aim to 
reduce smuggling and associated crimes, the Border Patrol will 
increase the ability to disrupt and degrade transnational 
criminal organizations along our borders. Our consequence 
delivery system is one example of our ability to apply targeted 
and effective strategies that guide management and agents 
through a standardized process designed to uniquely evaluate 
each subject and identify the ideal consequence that breaks the 
smuggling cycle.
    In order to maximize enforcement benefits from combined 
resources, we must move beyond collaboration toward 
integration. Our border security mission involves a multitude 
of entities in the application of a whole-of-Government 
approach to ensure that we are working together in an 
integrated way.
    Last, the Border Patrol will continue to engage and educate 
the public on border activities and issues to leverage the 
critical assistance of our border communities. Active 
engagement by the Border Patrol with local law enforcement and 
the public can assist in lowering crime and reducing violence 
in border communities.
    Goal No. 2 is to mature, refine, and integrate the Border 
Patrol's institutional capabilities and techniques. The Border 
Patrol will achieve this goal by strengthening our investment 
in its people, supporting our employees, preserving our 
organizational integrity, improving our processes, systems, and 
doctrine, and enhancing our efficiencies.
    First, we must strengthen our investment in our people and 
capabilities through improved education, training, and support 
of the Border Patrol personnel. Second, we must reinforce 
employee support initiatives in programs that continue to 
provide ways for Border Patrol employees to remain resilient in 
the performance of their day-to-day duties. Third, the Border 
Patrol must address threats to organizational integrity and 
remain vigilant in training and promoting initiatives to combat 
corruption to ensure morale and mission are not compromised. 
Leaders must set the example and promote integrity through the 
Border Patrol to reduce the potential for corruption.
    As the Border Patrol grows and matures, it is necessary to 
develop an institutionalized doctrine within the organization 
that will help execute the long-term strategic plan and enable 
the Border Patrol to seamlessly link the operational force to 
emerging tactics, techniques, and procedures of our 
adversaries.
    Last, it is the Border Patrol's responsibility to ensure 
that its leaders, agents, and support personnel are good 
stewards of the American tax dollars. As the Border Patrol 
progresses toward organizational rigor and maturity, an 
essential element will be the development and continual 
refinement of comprehensive, demanding, and results-driven 
performance measures that hold us to account.
    The Border Patrol strategic plan marks an important point 
in the growth and development of the U.S. Border Patrol and 
establishes an approach that is tailored to meet the challenges 
of securing a 21st Century border against a variety of dynamic 
threats and dangerous adversaries. Ultimately, leveraging all 
available actions, programs, and techniques encompassed within 
our strategic plan will strengthen the Border Patrol 
internally, increase capabilities and our operations, and 
enhance border security and ultimately National security 
through the use of information, integration, and rapid 
response.
    Again, Chairwoman, thank you for the opportunity to testify 
today. I look forward to working with you and the committee as 
we design the strategic implementation plan. At this point, I 
welcome your questions.
    [The statement of Chief Fisher follows:]

                Prepared Statement of Michael J. Fisher
                              May 8, 2012

    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, it is an honor to appear before you today 
to discuss the 2012-2016 Border Patrol Strategic Plan and its role 
within the work that U.S. Customs and Border Protection (CBP) does in 
securing America's borders.
    As America's front-line border agency, CBP's priority mission is to 
protect the American public, while facilitating lawful travel and 
trade. To do this, CBP has deployed a multi-layered, risk-based 
approach to enhance the security of our borders, while facilitating the 
flow of lawful people and goods entering the United States. This 
layered approach to security reduces our reliance on any single point 
of entry or program. It also extends our zone of security outward, 
ensuring that our physical border is not the first or last line of 
defense, but one of many.

                       BORDER SECURITY COMMITMENT

    Over the past 3 years, the Department of Homeland Security (DHS) 
has dedicated historic levels of personnel, technology, and resources 
in support of our border security efforts and accomplishments. Most 
recently, the President's fiscal year 2013 budget request continues 
these efforts by supporting the largest deployment of law enforcement 
officers to the front line in our agency's history: 21,370 Border 
Patrol agents, over 1,200 air and marine agents, and 21,186 CBP 
officers, all who work 24/7 with State, local, Tribal, and Federal law 
enforcement in targeting illicit networks trafficking in people, drugs, 
weapons, and money. Over the last year, we have brought greater unity 
to our enforcement efforts, expanded collaboration with other agencies, 
and improved response times.
    CBP has also deployed additional technology assets--including 
mobile surveillance units, thermal imaging systems, and large- and 
small-scale non-intrusive inspection equipment--along our Nation's 
borders, and currently has over 270 aircrafts including nine Unmanned 
Aircraft Systems (UAS), and 301 patrol and interdiction vessels that 
provide critical aerial and maritime surveillance and operational 
assistance to personnel on the ground. The UAS program is rapidly 
changing how ground assets are deployed, supplying Border Patrol Agents 
with unparalleled situational awareness through its broad area 
electronic surveillance capabilities. Going forward, CBP will continue 
to integrate the use of these specialized capabilities into the daily 
operations of CBP's front-line personnel to enhance our border security 
efforts.
    The results of these resources dedicated to the border and our 
layered approach to security are clear. Border Patrol apprehensions 
along the Southwest Border--a key indicator of illegal immigration--
have decreased 53 percent since fiscal year 2008, and are less than 
one-fifth of what they were at their peak in 2000. We have matched 
these decreases in apprehensions with increases in seizures of cash, 
drugs, and weapons. During fiscal years 2009 through 2011, DHS seized 
74 percent more currency, 41 percent more drugs, and 159 percent more 
weapons along the Southwest Border as compared to fiscal year 2006-
2008. In fiscal year 2011, CBP seized more than $126 million in illegal 
currency and nearly 5 million pounds of narcotics Nation-wide. At the 
same time, according to 2010 FBI crime reports, violent crimes in 
Southwest Border States have dropped by an average of 40 percent in the 
last two decades. Currently, some of the safest cities in America are 
border communities.
    Every key measure shows we are making significant progress; 
however, we must remain vigilant and focus on building upon an approach 
that puts the Border Patrol's greatest capabilities in place to combat 
the greatest risks.

              BUILDING ON THE PAST--FOCUSING ON THE FUTURE

    Beginning with ``Operation Hold the Line'' in El Paso in 1993, 
``Operation Gatekeeper'' in San Diego, CA in 1994, and ``Operation Rio 
Grande'' in Brownsville, TX in 1997, the Border Patrol strategically 
deploys resources to meet the highest-priority threats.
    The evolution of the Border Patrol as a risk-based, intelligence-
driven law enforcement organization is part of a much larger change in 
the U.S. Government's approach to border and homeland security, which 
began with the September 11, 2001 terrorist attacks. The 2012-2016 
Border Patrol Strategic Plan (2012 Strategic Plan) builds on the 
foundation of the 2004 National Border Patrol Strategy. The Border 
Patrol's 2004 Strategy focused on getting the Border Patrol organized 
and resourced to meet its new, post-9/11 mission and succeed in its new 
parent organization. For instance, it facilitated the unprecedented 
deployment of personnel, technology, and infrastructure to secure the 
Nation's borders.
    The 2012 Strategic Plan draws on earlier applications of a risk-
based approach as part of the administration's comprehensive approach 
to border security.

                 2012-2016 BORDER PATROL STRATEGIC PLAN

    The 2012 Strategic Plan, applying the principles of risk 
management, sets a strong foundation for the continued evolution of the 
Border Patrol as an integral part of CBP's overall border management 
and homeland security enterprise.
    The 2012 Strategic Plan encompasses three key objectives and 
strategies concerning border security today. First, the Strategic Plan 
supports National-level strategies, such as the President's Strategy to 
Combat Transnational Organized Crime and the National Drug Control 
Strategy. Second, it supports Departmental strategies, in particular 
the DHS Quadrennial Homeland Security Review. Finally, it supports CBP-
wide planning and integration efforts. It means being more effective 
and efficient in our operations to mitigate risks. It also means 
continued integration within CBP and working with Federal, State, 
local, Tribal, and international partners.
    The 2012 Strategic Plan involves a set of objectives, strategies, 
programs, and initiatives which apply information, integration, and 
rapid response to develop and deploy new and better tactics, 
techniques, and procedures to achieve its strategic objectives.

              INFORMATION, INTEGRATION, AND RAPID RESPONSE

    The principal theme of the 2012 Strategic Plan is to use 
information, integration, and rapid response to meet all threats. These 
pillars are central as we continue to build upon an approach that puts 
the Border Patrol's greatest capabilities in place to combat the 
greatest risks.
    Information gathered from reconnaissance, community engagement, 
sign-cutting, and technology together provide situational awareness and 
intelligence and helps us to best understand and assess the threats we 
face along our borders. Information and intelligence will empower 
Border Patrol leadership and front-line agents to get ahead of the 
threat, be predictive and proactive.
    Integration denotes CBP corporate planning and execution of border 
security operations, while leveraging partnerships with other Federal, 
State, local, Tribal, and international organizations.
    Integration of effort with these organizations will ensure we bring 
all available capabilities and tools to bear in addressing threats.
    Last, through rapid response, we will deploy capabilities 
efficiently and effectively to meet and mitigate the risks we confront. 
Put simply, rapid response means the Border Patrol and its partners can 
quickly and appropriately respond to changing threats.

                    GOAL 1: SECURE AMERICA'S BORDERS

    The 2012 Strategic Plan has two interrelated and interdependent 
goals. In the first goal, the Border Patrol will work with its Federal, 
State, local, Tribal, and international partners to secure America's 
borders using information, integration, and rapid response in a risk-
based manner. There are five objectives within this goal:
    I. Prevent Terrorists and Terrorist Weapons from Entering the 
        United States
    II. Manage Risk
    III. Disrupt and Degrade Transnational Criminal Organizations 
        (TCOs)
    IV. Whole-of-Government Approach
    V. Increase Community Engagement

I. Prevent Terrorists and Terrorist Weapons From Entering the United 
        States
    The current risk environment is characterized by constantly 
evolving threats that are both complex and varying, and the Border 
Patrol must strategically apply intelligence to ensure that operations 
are focused and targeted against the greatest threats. The Border 
Patrol's ability to prevent and disrupt such threats is enhanced 
through increased information sharing and operational integration, 
planning, and execution with our domestic and foreign law enforcement 
partners. Integration with our Federal, State, local, Tribal, and 
international partners' intelligence and enforcement capabilities into 
the planning and execution of CBP operations is critical to our ability 
to secure our Nation's borders.

II. Manage Risk
    Developing and deploying the best possible information and 
intelligence is critical to assessing and managing risk. The Border 
Patrol has made significant progress in securing the Nation's borders 
through the deployment of personnel, technology, and infrastructure. 
These enhanced resources have made our borders more secure. Yet as 
threats along the border continue to evolve, CBP's capabilities to meet 
these threats must also continue to adapt. Accordingly, as we evolve 
from a resource-based approach towards a more risk-based approach, we 
must be able to focus the Border Patrol's capabilities in rapidly 
responding to threats along the border.
    Given the dynamic nature of cross-border threats, the Border Patrol 
must become more mobile to respond appropriately to the changing 
threat. Mobile Response Capability provides the Border Patrol with the 
flexibility to deploy capabilities to the highest-risk areas of the 
border. The Border Patrol also deploys scalable capabilities to areas--
before they become high-risk--to maintain the highest possible levels 
of security in each border area. This capability builds on situational 
awareness, because the Border Patrol must know when, where, and to what 
extent to deploy its capabilities.

III. Disrupt and Degrade TCOs
    Transnational criminal organizations (TCOs) represent a significant 
cross-border threat to homeland security. These organizations control 
most cross-border trafficking in guns and illegal drugs, as well as an 
increasing percentage of human smuggling and trafficking. With efforts 
in place to understand the origin and magnitude of threats along the 
border, the Border Patrol can now focus on specific threats like TCOs, 
and work to disrupt and degrade their operations. The Border Patrol's 
response to this threat also will involve close collaboration within 
CBP and includes Federal, State, local, and Tribal partners to advance 
the common goal of disrupting and degrading TCO activity. For example, 
CBP has developed, with the support of its strategic partners, a new 
Consequence Delivery System (CDS) that guides agents through a process 
designed to evaluate each subject and identify the appropriate 
consequence to break the smuggling cycle. Consequences delivered under 
this system that execute targeted enforcement techniques range from 
administrative, criminal prosecution, and programmatic elements that 
are designed to impact and change the way TCOs conduct business and 
stem the flow of illegal activity.

IV. Whole-of-Government Approach
    The U.S. Border Patrol will continue to integrate targeting 
practices and joint operations with CBP's Office of Field Operations 
(OFO) and Office of Air and Marine (OAM) to better achieve its goals. 
The Border Patrol also will work with its Federal, State, local, and 
Tribal law enforcement partners to achieve a holistic approach to 
border security. This is accomplished by establishing a unity of 
purpose; advancing operational integration and jointly planned targeted 
operations; developing intelligence and accomplishing intelligence 
fusion; and creating integrated partnerships. This whole-of-Government 
approach, coupled with the application of the principles of targeted 
enforcement, consequence delivery, and operational discipline, provides 
the capability necessary to enhance the Border Patrol and its partners' 
abilities to address threats or emergencies within a region.

V. Increase Community Engagement
    The Border Patrol will continue to use its collective capabilities 
to engage and educate the public on border activities and issues so we 
can leverage the critical assistance of our border communities. Active 
engagement by the Border Patrol with local law enforcement and the 
public can assist in lowering crime and reducing violence. 
Additionally, through briefings, tours, informal meetings, and 
stakeholder ``academies,'' the Border Patrol is able to show the 
operational achievements and challenges, which are essential to 
fostering support from our partners and stakeholders.

                  GOAL 2: STRENGTHEN THE BORDER PATROL

    The Border Patrol must also continue to mature, refine, and 
integrate its capabilities and techniques. To meet current and future 
operational and organizational requirements, it is essential to 
develop, deploy, and manage institutional capabilities within the 
Border Patrol. This includes areas such as human capital management, 
training, leadership development, employee support, organizational 
integrity, doctrine development, and technology research and 
development. The Border Patrol will strengthen its institutional 
capabilities through five objectives:
    I. Strengthen Investment in People
    II. Support Border Patrol Employees
    III. Preserve Organizational Integrity
    IV. Improve Organizational Processes, Systems, and Doctrine
    V. Enhance Overall Efficiency of the Border Patrol

I. Strengthen Investment in People
    People are our most valuable asset. The Border Patrol must hire the 
most qualified applicants and train new employees to be successful in 
performing the mission. Leaders must ensure that employees have the 
opportunity to reach their highest potential by receiving the 
appropriate education, training, and work experiences to progress in 
the organization. Border Patrol will use a multi-tiered approach 
incorporating education, training, and work experience to maximize the 
effectiveness of Border Patrol personnel, such as succession 
management, targeted placement, advanced education and training, joint 
and inter-agency assignments, and mentoring.

II. Support Border Patrol Employees
    We must reinforce employee-support initiatives and programs that 
continue the tradition of the Border Patrol. Given the challenges law 
enforcement face in their daily work, it is incumbent upon leadership 
to provide ways for Border Patrol employees to remain resilient in the 
performance of their day-to-day duties. The National Critical Incident 
Response Team, a component of the Border Patrol's Traumatic Incident 
Management Plan, supports CBP employees involved in small- and large-
scale, critical-incident operations. The team consists of peer support 
members, chaplains, and mental-health professionals who have 
specialized training in critical-incident-response management.

III. Preserve Organizational Integrity
    The U.S. Border Patrol is fortunate in that the documented cases of 
corrupt employees represent only a minute percentage of the workforce. 
However, any instance of corruption within our ranks always has been--
and always will be--unacceptable. We are committed to organizational 
integrity and remain vigilant in training and promoting initiatives to 
combat corruption to ensure morale and mission are not compromised. 
Leaders must set the example and promote integrity throughout the 
Border Patrol to reduce the potential for corruption.

IV. Improve Organization Processes, Systems, and Doctrine
    As the Border Patrol grows and matures, it is necessary to codify 
best practices and policies to ensure that the organization continues 
to provide professional border-enforcement capability for the United 
States. Doctrine will focus on overarching enduring principles, sector 
operations, and future border security initiatives that all agents can 
use to execute their mission in the field.

V. Enhance Overall Efficiency of the Border Patrol
    It is the Border Patrol's responsibility to ensure that its 
leaders, agents, and support personnel are good stewards of American 
tax dollars. As the Border Patrol progresses toward organizational 
rigor and maturity, an essential element will be the development and 
continual refinement of comprehensive, demanding, and results-driven 
performance measures that hold us accountable. Even as the organization 
internalizes these standards, it also must effectively communicate 
overall performance to its most important stakeholders--the American 
public.

                               CONCLUSION

    The 2012-2016 Border Patrol Strategic Plan marks an important point 
in the growth and development of the U.S. Border Patrol, and 
establishes an approach that is tailored to meet the challenges of 
securing a 21st Century border against a variety of different threats 
and adversaries. Ultimately, leveraging all available actions, 
programs, and techniques encompassed within the 2012 Strategic Plan 
will strengthen the Border Patrol internally, increase capabilities and 
operations, and enhance border security through information, 
integration, and rapid response.
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the committee, thank you for this opportunity to testify 
about the work of CBP, our efforts in securing our borders, and the 
2012-2016 Border Patrol Strategic Plan. I look forward to answering 
your questions at this time.

    Mrs. Miller. Thanks very much, Chief.
    At this time, I would recognize Ms. Gambler for her 
testimony.

    STATEMENT OF REBECCA GAMBLER, ACTING DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Gambler. Good morning, Chairwoman Miller, Ranking 
Member Cuellar, and Members of the subcommittee. I appreciate 
the invitation to testify at today's hearing to discuss GAO's 
work on border security programs and performance measurement 
which could inform the Border Patrol's efforts as it 
transitions to its new strategic plan.
    The Border Patrol is the Federal agency with primary 
responsibility for securing U.S. borders between ports of 
entry. From fiscal year 2004 through 2011, the number of Border 
Patrol agents nearly doubled, from about 10,800 to nearly 
21,500. Also, the Department of Homeland Security has reported 
that since fiscal year 2006 about $4.4 billion has been 
invested in border technology and infrastructure.
    The Border Patrol is issuing a new strategic plan to guide 
its border security efforts. According to the Border Patrol, 
this plan will involve use of a risk-based approach based on 
the three key elements of information, integration, and rapid 
response.
    Today I would like to focus my remarks on two key areas 
related to Border Patrol strategy. First, I would like to 
highlight GAO's prior work related to the Border Patrol's 
implementation of its 2004 National Strategy. Second, I would 
like to highlight GAO's prior work reviewing performance 
measures and indicators for border security.
    With regard to my first point, our work has shown that the 
Border Patrol, and the Department of Homeland Security more 
broadly, have made progress in developing and deploying 
capabilities related to the three key elements of the new 
strategic plan. Specifically, the Border Patrol and the 
Department have deployed capabilities to provide information 
and situational awareness, for securing the border to 
coordinate efforts with border partners, and to provide for 
mobile response.
    For example, the Department has deployed various technology 
systems to increase situational awareness, primarily along the 
Southwest Border. Further, the Border Patrol and its 
international and domestic law enforcement partners have 
established task forces for coordinating security activities 
along the Northern Border.
    While these are positive developments, our work has 
identified key challenges facing the Border Patrol and the 
Department of Homeland Security in implementing the border 
security strategy. Consideration of these challenges could 
inform Border Patrol effort as the agency begins to implement 
its new strategic plan.
    For example, we have reported on the need for the 
Department to better assess the benefits and performance of 
technology and infrastructure deployed along the Southwest 
Border to help provide situational awareness. We have also 
reported on the need for the Department to enhance its 
oversight of task forces to help identify and reduce any 
potential duplication of effort.
    Now turning to the issue of performance measurement, the 
Department of Homeland Security's goal and measure of 
operational control was used in conjunction with the Border 
Patrol's 2004 Strategy. Operational control was defined as the 
number of border miles where the Border Patrol had the ability 
to detect, respond, and interdict cross-border illegal 
activity. The Department last reported its progress and status 
in achieving operational control of the borders in fiscal year 
2010. At that time, the Department reported achieving 
operational control for about 1,100 miles, or 13 percent, of 
more than 8,600 miles across U.S. Northern, Southwest, and 
Coastal Borders. On the Southwest Border specifically, the 
Border Patrol reported achieving operational control of 873 
miles, or 44 percent, of the nearly 2,000 miles of the U.S. 
border with Mexico.
    The Department of Homeland Security and Border Patrol have 
several efforts under way to develop new measures or indicators 
for assessing border security programs. Until these efforts are 
completed, the Department is using interim measures, such as 
the number of apprehensions on the Southwest Border. These 
measures provide some useful information but do not position 
the Department to be able to report on how effective its 
efforts are at securing the border.
    In closing, as the Border Patrol transitions to a new 
strategic plan, it will be critical for the Border Patrol 
itself and the Department more broadly to provide effective 
direction and oversight of its implementation. It will also be 
important for the Border Patrol and the Department to continue 
to develop performance measures that are linked to missions and 
goals, include targets, and produce reliable results.
    This concludes my oral statement. I would be pleased to 
answer any questions Members may have.
    [The statement of Ms. Gambler follows:]

                 Prepared Statement of Rebecca Gambler
                              May 8, 2012

                             GAO HIGHLIGHTS

    Highlights of GAO-12-688T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.

Why GAO Did This Study
    Border Patrol, within DHS's CBP, is the Federal agency with primary 
responsibility for securing the National borders between the U.S. ports 
of entry (POE). DHS has completed a new 2012-2016 Border Patrol 
Strategic Plan (2012-2016 Strategic Plan) that Border Patrol officials 
stated will emphasize risk management instead of increased resources to 
achieve border security and continue to build on the foundation of the 
2004 National Border Patrol Strategy (2004 Strategy). This statement 
highlights key issues from prior GAO reports that discuss Border 
Patrol's progress and challenges in: (1) Implementing key elements of 
the 2004 Strategy, and (2) achieving the 2004 strategic goal to gain 
operational control of the border. This statement is based on GAO 
reports issued since 2007 on border security, with selected updates 
from April and May 2012 on Border Patrol resource needs, actions taken 
to address prior GAO recommendations, and efforts to develop 
performance measures. To conduct these updates, GAO reviewed agency 
documents such as operational assessments and interviewed DHS 
officials.

What GAO Recommends
    In prior reports, GAO made recommendations to, among other things, 
strengthen border security technology, infrastructure, and 
partnerships. DHS concurred with the recommendations and has reported 
actions planned or underway to address them. CBP reviewed a draft of 
information contained in this statement and provided comments that GAO 
incorporated as appropriate.

BORDER PATROL STRATEGY.--PROGRESS AND CHALLENGES IN IMPLEMENTATION AND 
                           ASSESSMENT EFFORTS

What GAO Found
    GAO's prior work has highlighted progress and challenges in various 
areas related to Border Patrol's implementation of its 2004 National 
Strategy, which could provide insights as Border Patrol transitions to 
its 2012 Strategic Plan. Border Patrol officials stated that the 2012 
Strategic Plan will rely on Border Patrol and Federal, State, local, 
Tribal, and international partners working together to use a risk-based 
approach to secure the border, and include the key elements of 
``Information, Integration, and Rapid Response'' to achieve objectives. 
These elements were similar to those in the 2004 Strategy and GAO's 
past work highlighted the progress and challenges the agency faced 
obtaining information necessary for border security; integrating 
security operations with partners; and mobilizing a rapid response to 
security threats. Border Patrol successfully used interagency forums 
and joint operations to counter threats, but challenges included 
assessing the benefits of border technology and infrastructure to, 
among other things, provide information on situational awareness. For 
example, in May 2010 GAO reported that the Department of Homeland 
Security's (DHS) U.S. Customs and Border Protection (CBP) had not 
accounted for the effect of its investment in border fencing and 
infrastructure on security. GAO recommended that CBP conduct an 
analysis of the effect of tactical infrastructure on border security, 
with which CBP concurred. Further, GAO identified challenges in DHS 
efforts to coordinate with partners that help to secure the border. For 
example, in December 2010 GAO reported that various Northern Border 
security partners cited on-going challenges sharing information and 
resources for border security operations and investigations, and that 
DHS did not have mechanisms for providing oversight. GAO recommended 
that DHS provide oversight, to which DHS concurred and stated that in 
January 2012 the Department established an intercomponent Advisory 
Council to provide oversight of compliance with interagency agreements.
    GAO's prior work showed that as of September 30, 2010, Border 
Patrol reported achieving its 2004 goal of operational control--where 
Border Patrol has the ability to detect and interdict illegal 
activity--for 1,107 (13 percent) of 8,607 miles across U.S. Northern, 
Southwest, and Coastal Borders. DHS transitioned at the end of fiscal 
year 2010 from using operational control as its goal and outcome 
measure for border security to using an interim measure of 
apprehensions on the Southwest Border. DHS reported that this interim 
measure would be used until such time as DHS developed a new goal and 
measure for border security that will reflect a more quantitative 
methodology across border locations and the agency's evolving view of 
border security. As GAO previously testified, this interim measure, 
while providing useful information on activity levels, is an output 
measure that does not inform on program results. Therefore, it limits 
oversight and accountability and has reduced information provided to 
Congress and the public on program results. DHS stated that it had 
several efforts underway to establish a new measure used to assess 
efforts to secure the border but as this measure is under development, 
it is too early to assess it.
    Chairwoman Miller, Ranking Member Cuellar, and Members of the 
subcommittee: I am pleased to be here today to discuss our past work 
highlighting the U.S. Border Patrol's progress and challenges 
implementing its 2004 National Border Patrol Strategy (2004 Strategy) 
that could be relevant to the new 2012-2016 Border Patrol Strategic 
Plan (2012-2016 Strategic Plan). Border Patrol, within the Department 
of Homeland Security's (DHS) U.S. Customs and Border Protection (CBP), 
is the Federal agency with primary responsibility for securing the 
National borders between the designated U.S. land border ports of entry 
(POE).\1\ Border Patrol's 2004 Strategy to secure the borders focused 
on ensuring the agency had the right mix of personnel, technology, and 
infrastructure across locations, and Border Patrol experienced 
significant increases in these resources since 2004. For example, from 
fiscal year 2004 through 2011, the number of Border Patrol agents has 
nearly doubled from about 10,800 to nearly 21,500; and DHS reported 
that since fiscal year 2006, about $4.4 billion has been invested in 
border technology and infrastructure. These resources were used to 
support the DHS goal to achieve operational control of the Nation's 
borders. The extent of operational control--also referred to as 
effective control--was defined as the number of border miles where 
Border Patrol had the ability to detect, respond to, and interdict 
cross-border illegal activity. DHS last reported its progress and 
status in achieving operational control of the borders in fiscal year 
2010, and reported this information to Congress and the public in its 
Fiscal Year 2008-2010 Annual Performance Report in accordance with 
requirements in the Government Performance and Results Act of 1993 
(GPRA).\2\ DHS has completed but not yet publically released a new 
2012-2016 Strategic Plan that Border Patrol officials stated will 
emphasize risk management instead of increased resources to achieve 
border security and that will continue to build on the foundation of 
the 2004 Strategy.\3\ However, the performance goal and measures that 
will be used to provide oversight and accountability for the new 
strategic plan have not yet been established. In its Fiscal Year 2010-
2012 Annual Performance Report and subsequent reports, DHS replaced the 
border security goal and measure of operational control with an interim 
measure of the number of apprehensions on the Southwest Border to 
report its status and progress in achieving border security to Congress 
and the public. As of April 2012, DHS had yet to develop a new goal for 
border security. DHS reported that the interim measure of apprehensions 
on the Southwest Border would be used until such time as DHS developed 
a new goal and measure for border security that will reflect a more 
quantitative methodology across border locations and the agency's 
evolving view of border security.
---------------------------------------------------------------------------
    \1\ POE are officially designated places that provide for the 
arrival to, or departure from, the United States.
    \2\ Pub. L. No. 103-62, 107 Stat. 285, amended by The GPRA 
Modernization Act (GPRAMA) of 2010, Pub. L. No. 111-352, 124 Stat. 
3866. Under GPRA, agencies are required to hold programs accountable to 
Congress and the public by establishing program goals, identifying 
performance measures used to indicate progress toward meeting the 
goals, and using the results to improve performance, as necessary. The 
information is publicly reported each year in the Department's 
performance accountability report. Under the amendments made by GPRAMA, 
agencies are to describe how the performance goals contribute to the 
agency's strategic plan, establish clearly-defined milestones for 
achieving performance goals, and describe how they will ensure the 
accuracy and reliability of the data used to measure progress.
    \3\ In the context of risk management, ``risk-based'' and ``risk-
informed'' are often used interchangeably to describe the related 
decision-making processes. However, according to the DHS Risk Lexicon, 
risk-based decision making uses the assessment of risk as the primary 
decision driver, while risk-informed decision making will consider 
other relevant factors such as effectiveness and cost in addition to 
risk-assessment information. In our prior work we have reported on the 
importance of risk-informed decision making with respect to homeland 
security strategies given DHS's limited resources. See GAO, Department 
of Homeland Security: Actions Needed to Reduce Overlap and Potential 
Unnecessary Duplication, Achieve Cost Savings, and Strengthen Mission 
Functions, GAO-12-464T (Washington, DC: Mar. 8, 2012).
---------------------------------------------------------------------------
    In the past, we have reviewed and reported on a variety of border 
security programs and related performance goals and measures supporting 
the 2004 Strategy that could inform discussions regarding the 2012-2016 
Strategic Plan. Today I will highlight key issues on the Border 
Patrol's progress and challenges relevant to: (1) Implementing key 
elements of the 2004 Strategy, and (2) achieving the 2004 strategic 
goal to gain operational control of the border.
    In addition, appendices I and II provide information on 
characteristics of effective National security strategies and 
performance measures, respectively.
    My statement is based on prior products issued from 2007 to the 
present that examined DHS's efforts to secure the U.S. borders (see 
related GAO products at the end of this statement), with selected 
updates related to the Border Patrol's new strategic plan conducted in 
April and May 2012. For those reports and testimonies, we obtained and 
analyzed documents and information from officials from various 
components of DHS; the Department of Justice (DOJ); the Department of 
Interior (DOI); the United States Department of Agriculture (USDA); and 
Canadian, Tribal, State, and local law enforcement agencies with a 
vested interest in border security along the Northern or Southwest 
Borders. More detailed information about our scope and methodology can 
be found in our reports and testimonies. For the selected updates we 
interviewed Border Patrol headquarters officials regarding the 
forthcoming 2012-2016 Border Patrol Strategic Plan and the status of 
agency efforts to develop performance measures for assessing the 
security of the border between the POEs, as well as reviewed relevant 
information contained in Border Patrol 2012 Operational Requirements 
Based Budget Process (ORBBP)--operational assessments--and other 
documents.\4\ We also reviewed our prior work on key elements of 
effective National security strategies and previous work on key 
attributes of successful performance measures consistent with GPRA.\5\ 
Our work was conducted in accordance with generally accepted Government 
auditing standards. These standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions, based on our audit objectives.
---------------------------------------------------------------------------
    \4\ The ORBBP is Border Patrol's standardized National planning 
process that links sector- and station-level planning, operations, and 
budgets. This process documents how sectors identify and justify their 
requests to achieve effective control of the border in their area of 
responsibility, and enables Border Patrol to determine how the 
deployment of resources, such as technology, infrastructure, and 
personnel, can be used to secure the border.
    \5\ See GAO, Combating Terrorism: Evaluation of Selected 
Characteristics in National Strategies Related to Terrorism, GAO-04-
408T (Washington, DC: Feb. 3, 2004); Rebuilding Iraq: More 
Comprehensive National Strategy Needed to Help Achieve U.S. Goals, GAO-
06-788 (Washington, DC: July 11, 2006); and Tax Administration: IRS 
Needs to Further Refine Its Tax Filing Season Performance Measures, 
GAO-03-143 (Washington, DC: Nov. 22, 2002).
---------------------------------------------------------------------------
BORDER PATROL PROGRESS AND CHALLENGES IMPLEMENTING KEY ELEMENTS OF ITS 
                         2004 NATIONAL STRATEGY

    The Border Patrol developed its 2004 Strategy following the 
terrorist attacks of September 11, 2001, as a framework for the 
agency's new priority mission of preventing terrorists and terrorist 
weapons from entering the United States and to support its traditional 
mission of preventing aliens, smugglers, narcotics, and other 
contraband from crossing U.S. borders illegally. The 2004 Strategy was 
designed to facilitate the build-up and deployment of agency and border 
resources and to consolidate the agency into a more centralized 
organization.
    Border Patrol headquarters officials stated that the 2012-2016 
Strategic Plan will rely on Border Patrol and Federal, State, local, 
Tribal, and international partners working together to use a risk-based 
approach to secure the border that uses the key elements of 
``Information, Integration, and Rapid Response'' to achieve Border 
Patrol strategic objectives. Our past reviews of border security 
programs contained information on the progress and challenges related 
to implementing these key elements. Our observations are as follows.
    Obtaining Information Necessary for Border Security.--Critical to 
implementation of the 2004 Strategy was the use of intelligence to 
assess risk, target enforcement efforts, and drive operations, 
according to the strategy. As part of their intelligence efforts, CBP 
and Border Patrol worked to develop and deploy the next generation of 
border surveillance and sensoring platforms to maximize the Border 
Patrol's ability to detect, respond, and interdict cross-border illegal 
activity. Border Patrol headquarters officials reported that the new 
2012-2016 Strategic Plan also has a focus on information that provides 
situational awareness and intelligence developed by blending 
technology, reconnaissance, and sign-cutting \6\ and tracking, to 
understand the threats faced along the Nation's borders. Our prior work 
reviewing CBP's efforts to deploy capabilities to, among other things, 
provide situational awareness along U.S. borders provides insights that 
could inform Border Patrol considerations in implementing its new 
strategic plan.
---------------------------------------------------------------------------
    \6\ ``Sign'' is the collective term for evidence that Border Patrol 
agents look for and find after they have dragged dirt roads using tires 
lying on their sides flat on the ground and pulled by chains behind an 
SUV. ``Sign'' can be footprints, animal prints, and tire or bicycle 
tracks--any indication in the polished surface created by the drag. The 
term ``cutting'' refers to the practice of concentrating on the marks 
within discrete, manageable slices or segments of terrain. Border 
Patrol agents track illegal cross-border activity by cutting for sign 
to find persons who may have crossed the border illegally.
---------------------------------------------------------------------------
    As of fiscal year end 2010, Border Patrol reported having 
substantial detection resources in place across 45 percent of the 
Nation's border miles. The remaining 55 percent of border miles--
primarily on the Northern and Coastal Borders--were considered 
vulnerable due to limited resource availability or inaccessibility, 
with some knowledge available to develop a rudimentary border control 
strategy. Our review of Border Patrol 2012 operational assessments also 
showed concerns about resource availability to provide the information 
necessary to secure the border. Across Border Patrol's 20 sectors 
located on the Northern, Southwest, and Southeast Coastal Borders, all 
sectors reported a need for new or replacement technology used to 
detect and track illegal activity, and the majority (19) reported a 
need for additional agents to maintain or attain an acceptable level of 
border security.\7\ Additionally, 12 sectors reported a need for 
additional infrastructure.\8\
---------------------------------------------------------------------------
    \7\ For example, one station in a northern sector requested 
additional agents to enhance limited border detection and enforcement 
capability to an acceptable level, and one station in a southwest 
sector reported a need for fixed and mobile technology to secure the 
remote and rugged terrain, reporting that without this technology, 
rapid response was often impossible.
    \8\ For example, one station in a northern sector reported that 
insufficient infrastructure and personnel meant violators had a high 
probability of crossing a remote/rural border area undetected, and one 
station in a southwest sector reported that lack of infrastructure 
hindered its ability to address a more than 91 percent increase in 
aliens who are able to get away before apprehension.
---------------------------------------------------------------------------
    DHS, CBP, and Border Patrol are continuing to focus attention on 
development, acquisition, and deployment of technology and 
infrastructure needed to provide the information necessary to secure 
the borders, with priority for the Southwest Border. Our past work 
highlighted the continuing challenges the agency faced implementing 
technology and infrastructure at the U.S. land borders.
  <bullet> Technology.--We previously reported that in January 2011, 
        after 5 years and a cost of nearly $1 billion, DHS ended the 
        Secure Border Initiative Network (SBInet), a multi-year, multi-
        billion-dollar technology effort aimed at securing U.S. borders 
        because it did not meet cost-effectiveness and viability 
        standards. DHS developed a successor plan to secure the 
        border--the Alternative (Southwest) Border Technology plan--
        where CBP is to focus on developing terrain- and population-
        based solutions utilizing existing, proven technology, such as 
        camera-based surveillance systems, for each border region 
        beginning with high-risk areas in Arizona. In November 2011, we 
        reported that CBP's planned technology deployment plan for the 
        Arizona border, the Arizona Border Surveillance Technology 
        Plan, was expected to cost approximately $1.5 billion over 10 
        years.\9\ However, we also reported that CBP did not have the 
        information needed to fully support and implement the 
        technology deployment plan in accordance with DHS and Office of 
        Management and Budget guidance, among other things.\10\ We 
        recommended that DHS determine the mission benefits to be 
        derived from implementation of the plan and develop and apply 
        key attributes for metrics to assess program implementation. 
        DHS concurred with our recommendation and reported that it 
        planned to develop a set of measures to assess the 
        effectiveness and benefits of future technology investments.
---------------------------------------------------------------------------
    \9\ $1.5 billion then-year dollars. Then-year dollars reflect the 
cost at the time of the procurement.
    \10\ GAO, Arizona Border Surveillance Technology: More Information 
on Plans and Costs Is Needed before Proceeding, GAO-12-22 (Washington, 
DC: Nov. 4, 2011).
---------------------------------------------------------------------------
  <bullet> Infrastructure.--In May 2010, we testified that CBP had not 
        accounted for the effect of its investment in border fencing 
        and infrastructure on border security.\11\ Border fencing was 
        designed to impede people on foot and vehicles from crossing 
        the border and to enhance Border Patrol's ability to detect and 
        interdict violators. CBP estimated that border fencing and 
        other infrastructure had a life-cycle cost of about $6.5 
        billion for deployment, operations, and maintenance. CBP 
        reported a resulting increase in control of Southwest Border 
        miles, but could not account separately for the effect of the 
        border fencing and other infrastructure. In a September 2009 
        report, we recommended that CBP conduct an analysis of the 
        effect of tactical infrastructure on border security.\12\ CBP 
        concurred and reported that it had contracted with the Homeland 
        Security Institute (HSI)--a Federally-funded research and 
        development center--to analyze the effect of tactical 
        infrastructure on the security of the border.\13\ As of May 
        2012, CBP had not provided an update on this effort.
---------------------------------------------------------------------------
    \11\ GAO, Secure Border Initiative: DHS Has Faced Challenges 
Deploying Technology and Fencing Along the Southwest Border, GAO-10-
651T (Washington, DC: May 4, 2010).
    \12\ GAO, Secure Border Initiative: Technology Deployment Delays 
Persist and the Impact of Border Fencing Has Not Been Assessed, GAO-09-
896 (Washington, DC: Sept. 9, 2009).
    \13\ The Secretary of Homeland Security established HSI pursuant to 
section 312 of the Homeland Security Act of 2002. See 6 U.S.C.  192.
---------------------------------------------------------------------------
    Integrating Border Security Operations with Federal, State, Local, 
Tribal, and International Partners.--Leveraging the law enforcement 
resources of Federal, State, local, Tribal, and international partners 
was a key element of Border Patrol's 2004 Strategy and Border Patrol's 
implementation of the strategy, on the Northern and Coastal Borders 
where Border Patrol had fewer resources relative to the size of the 
geographic area, and on the Southwest Border where Border Patrol used 
the assistance of law enforcement partners to conduct surge operations 
in high-priority areas. Border Patrol headquarters officials stated 
that integration of border security operations will be a key element of 
the 2012-2016 Strategic Plan across all borders. Our prior work 
reviewing coordination among various stakeholders with responsibilities 
for helping to secure the border provides insights for consideration as 
Border Patrol transitions to its new strategic plan.
    We previously reviewed Border Patrol efforts to coordinate law 
enforcement resources across partners on the Northern Border and on 
Federal border lands.\14\ On the Northern Border, we reported in 
December 2010 that Federal, State, local, Tribal, and Canadian partners 
operating in four Border Patrol sectors we visited stated that efforts 
to establish interagency forums were beneficial in establishing a 
common understanding of border security status and threats, and that 
joint operations helped to achieve an integrated and effective law 
enforcement response. However, numerous partners cited challenges 
related to the inability to resource the increasing number of 
interagency forums and raised concerns that some efforts may be 
overlapping. We found that DHS did not oversee the interagency forums 
established by its components. Further, we also reported that while 
Border Patrol and other Federal partners stated that Federal agency 
coordination to secure the Northern Border was improved, partners in 
all four sectors we visited cited long-standing and on-going challenges 
sharing information and resources for daily border security related to 
operations and investigations.\15\ Challenges were attributed to 
continued disagreement on roles and responsibilities and competition 
for performance statistics used to inform resource allocation 
decisions. DHS established and updated interagency agreements designed 
to clarify roles and responsibilities for agencies with overlapping 
missions or geographic areas of responsibility, but oversight by 
management at the component and local levels had not ensured consistent 
compliance with provisions of these agreements. We previously reported 
that Government-wide efforts to strengthen interagency collaboration 
have been hindered by the lack of agreement on roles and 
responsibilities and agency performance management systems that do not 
recognize or reward interagency collaboration.\16\ Thus, we 
recommended, among other things, that DHS provide guidance and 
oversight for interagency forums established or sponsored by its 
components and provide regular oversight of component compliance with 
the provisions of interagency Memorandum of Understandings. DHS 
concurred with our recommendation and stated that the structure of the 
Department precluded DHS-level oversight, but that it would review the 
inventory of interagency forums through its strategic and operational 
planning efforts to assess efficiency. DHS officials stated that in 
January 2012 the Department established an intercomponent Advisory 
Council to address our recommendation that DHS provide oversight of 
compliance with interagency agreements.\17\
---------------------------------------------------------------------------
    \14\ GAO, Border Security: Enhanced DHS Oversight and Assessment of 
Interagency Coordination Is Needed for the Northern Border, GAO-11-97 
(Washington, DC: Dec. 17, 2010), and Border Security: Additional 
Actions Needed to Better Ensure a Coordinated Federal Response to 
Illegal Activity on Federal Lands, GAO-11-177 (Washington, DC: Nov. 18, 
2010).
    \15\ These partners included DHS's Offices of Border Patrol and 
Immigration and Customs Enforcement, DOJ's Drug Enforcement 
Administration, and USDA's U.S. Forest Service.
    \16\ GAO, National Security: Key Challenges and Solutions to 
Strengthen Interagency Collaboration, GAO-10-822T (Washington, DC: June 
2010), and Interagency Collaboration: Key Issues for Congressional 
Oversight of National Security Strategies, Organizations, Workforce, 
and Information Sharing, GAO-09-904SP (Washington, DC: Sept. 25, 2009).
    \17\ According to DHS officials, this intercomponent Advisory 
Council meets quarterly to, among other things, identify cross-cutting 
issues, identify areas for closer collaboration, and share best 
practices.
---------------------------------------------------------------------------
    We also reported in December 2010 that while there is a high 
reliance on law enforcement support from partners on the Northern 
Border, the extent of law enforcement resources available to address 
border security vulnerabilities was not reflected in Border Patrol's 
processes for assessing border security and resource requirements.\18\ 
We previously reported that Federal agencies should identify resources 
among collaborating agencies to deliver results more efficiently and 
that DHS had not fully responded to a legislative requirement to link 
initiatives--including partnerships--to existing border vulnerabilities 
to inform Federal resource allocation decisions.\19\ Development of 
policy and guidance to integrate available partner resources in 
Northern Border security assessments and resource planning documents 
could provide the agency and Congress with more complete information 
necessary to make resource allocation decisions in mitigating existing 
border vulnerabilities. Thus, we recommended that DHS direct CBP to 
develop policy and guidance necessary to identify, assess, and 
integrate the available partner resources in Northern Border sector 
security assessments and resource planning documents. DHS concurred 
with our recommendation and has taken action to formulate new policy 
and guidance in associated strategic planning efforts.
---------------------------------------------------------------------------
    \18\ GAO-11-97.
    \19\ GAO, Results-Oriented Government: Practices That Can Help 
Enhance and Sustain Collaboration among Federal Agencies, GAO-06-15 
(Washington, DC: Oct. 21, 2005), and Northern Border Security: DHS's 
Report Could Better Inform Congress by Identifying Actions, Resources, 
and Time Frames Needed to Address Vulnerabilities, GAO-09-93 
(Washington, DC: Nov. 25, 2008).
---------------------------------------------------------------------------
    In our November 2010 report on interagency coordination on northern 
Federal borderlands in Border Patrol's Spokane sector and southwest 
Federal borderlands in Border Patrol's Tucson sector, we reported, 
among other things, that Border Patrol, DOI, and USDA had established 
forums and liaisons to exchange information.\20\ However, while 
information sharing and communication among these agencies had 
increased in recent years, critical gaps remained in implementing 
interagency agreements to share intelligence information and compatible 
secure radio communications for daily border security operations. We 
reported that coordination in these areas could better ensure officer 
safety and an efficient law enforcement response to illegal activity. 
In addition, there was little interagency coordination to share 
intelligence assessments of border security threats to Federal lands 
and develop budget requests, strategies, and joint operations to 
address these threats. We reported that interagency efforts to 
implement provisions of existing agreements in these areas could better 
leverage law enforcement partner resources and knowledge for more 
effective border security operations on Federal lands. Thus, we 
recommended that DHS, DOI, and USDA take the necessary action to 
further implement interagency agreements. The departments concurred 
with our recommendation. In response, Border Patrol issued a memorandum 
to all Border Patrol sectors emphasizing the importance of USDA and DOI 
partnerships to address border security threats on Federal lands. While 
this action is a positive step toward implementing our recommendation, 
we continue to believe that DHS should take additional steps necessary 
to monitor and uphold implementation of the existing interagency 
agreements, including provisions to share intelligence and resource 
requirements for enhancing border security on Federal lands.
---------------------------------------------------------------------------
    \20\ GAO-11-177.
---------------------------------------------------------------------------
    Mobilizing a Rapid Response to Border Security Threats.--One of the 
elements of Border Patrol's 2004 National Strategy was to improve the 
mobility and rapid deployment of personnel and resources to quickly 
counter and interdict threats based on shifts in smuggling routes and 
tactical intelligence. CBP reported expanding the training and response 
capabilities of the Border Patrol's specialized response teams to 
support domestic and international intelligence-driven and 
antiterrorism efforts as well as other special operations. Border 
Patrol headquarters officials stated that ``Rapid Response,'' defined 
as the ability of Border Patrol and its partners to quickly and 
appropriately respond to changing threats, will also be a key element 
of the 2012-2016 Strategic Plan; and in fiscal year 2011, Border Patrol 
allocated agent positions to provide a National group of organized, 
trained, and equipped Border Patrol agents who are capable of rapid 
movement to regional and National incidents in support of priority CBP 
missions. Our prior work and review of Border Patrol's 2012 operational 
assessments provide observations that could inform Border Patrol's 
transition to and implementation of its new strategic plan.
    Our review of Border Patrol 2012 operational assessments showed 
that Border Patrol sectors had used resources mobilized from other 
Border Patrol sectors or provided by law enforcement partners to 
maintain or increase border security. Border Patrol, for example, 
mobilized personnel and air assets from Yuma sector to neighboring 
Tucson sector, which cited that the coordination of operational 
activities was critical to the overall success of operations. 
Similarly, National Guard personnel and resources have been used to 
bridge or augment Border Patrol staffing until new agents are trained 
and deployed. The Department of Defense (DOD) estimated costs of about 
$1.35 billion for National Guard support of DHS's border security 
mission in the four Southwest Border States (California, Arizona, New 
Mexico, and Texas) from June 2006 through September 30, 2011.
    However, Border Patrol headquarters officials stated that they had 
not fully assessed to what extent the augmented mobile response 
resources would be sufficient to preclude the need to re-deploy 
personnel and resources needed to secure higher-priority border 
locations at the expense of lower-priority locations, or changes in the 
type or continued need of resources from its law enforcement partners. 
Within Border Patrol, for example, our review of the 2012 operational 
assessments showed that Border Patrol reported difficulty maintaining 
border control in areas from which resources have been redeployed. 
Border Patrol stations within six of the nine Southwest Border sectors 
have reported that agent deployments to other stations have affected 
their own deployment and enforcement activities.
    Border Patrol law enforcement partners also cited challenges. For 
example, we testified in April 2012 that DOD officials expressed 
concerns about the challenges to identify and plan a DOD role in the 
absence of a comprehensive strategy for Southwest Border security.\21\ 
In addition, we reported in March 2012 that while Border Patrol expects 
an increase in air support for rapid deployment of its mobile forces, 
it had not fully coordinated requirements with CBP's Office of Air and 
Marine (OAM).\22\ OAM officials stated that while they deployed a 
majority of resources to high-priority sectors, budgetary constraints, 
other National priorities, and the need to maintain presence across 
border locations limited the amount of resources they could redeploy 
from lower-priority sectors. In addition, the agency does not have 
documentation of analyses assessing the effect of these constraints and 
whether actions could be taken to change the mix and placement of 
resources within them.\23\ In response to our recommendation, in part, 
that CBP reassess the mix and placement of OAM air resources to include 
anticipated CBP strategic changes, DHS agreed and stated that it 
planned to complete such actions as part of the next iteration of the 
Aircraft Deployment Plan.\24\
---------------------------------------------------------------------------
    \21\ GAO, Observations on Costs, Benefits, and Challenges of a 
Department of Defense Role in Helping to Secure the Southwest Land 
Border, GAO-12-657T (Washington, DC: Apr. 17, 2012).
    \22\ GAO, Border Security: Opportunities Exist to Ensure More 
Effective Use of DHS's Air and Marine Assets, GAO-12-518 (Washington, 
DC: Mar. 30, 2012).
    \23\ GAO-12-518.
    \24\ Aircraft deployment plans are intended to match assets to 
operational requirements.
---------------------------------------------------------------------------
 BORDER PATROL PROGRESS AND CHALLENGES IN ACHIEVING ITS STRATEGIC GOAL 
                          FOR BORDER SECURITY

    The DHS goal and measure of operational control used in conjunction 
with the 2004 Strategy provided oversight of five levels of border 
control that were based on the increasing availability of information 
and resources, which Border Patrol used to detect, respond, and 
interdict illegal cross-border activity either at the border or after 
entry into the United States (see table 1). The top two levels--
``controlled'' and ``managed''--reflect Border Patrol's reported 
achievement of ``operational control,'' in that resources were in place 
and sufficient to detect, respond, and interdict illegal activity 
either at the immediate border (controlled level) or after the illegal 
entry occurs (managed level), sometimes up to 100 miles away. The 
remaining three levels reflected lower levels of border control, where 
Border Patrol has less ability to detect, respond to, or interdict 
illegal activity due to insufficient resources or inaccessibility.

  TABLE 1: DEFINITIONS OF BORDER PATROL LEVELS OF BORDER SECURITY UNDER
                              2004 STRATEGY
------------------------------------------------------------------------
        Level of Border Security                    Definition
------------------------------------------------------------------------
Controlled--operational control........  Continuous detection and
                                          interdiction resources at the
                                          immediate border with high
                                          probability of apprehension
                                          upon entry.
Managed--operational control...........  Multi-tiered detection and
                                          interdiction resources are in
                                          place to fully implement the
                                          border control strategy with
                                          high probability of
                                          apprehension after entry.
Monitored..............................  Substantial detection resources
                                          in place, but accessibility
                                          and resources continue to
                                          affect ability to respond.
Low-level monitored....................  Some knowledge is available to
                                          develop a rudimentary border
                                          control strategy, but the area
                                          remains vulnerable because of
                                          inaccessibility or limited
                                          resource availability.
Remote/low activity....................  Information is lacking to
                                          develop a meaningful border
                                          control strategy because of
                                          inaccessibility or lack of
                                          resources.
------------------------------------------------------------------------
Source: GAO analysis of U.S. Border Patrol data.

    DHS reported achieving operational control for 1,107 (13 percent) 
of 8,607 miles across U.S. Northern, Southwest, and Coastal Borders at 
the time it discontinued use of this performance goal at the end of 
fiscal year 2010 (see fig. 1). Nearly 80 percent of border miles Border 
Patrol reported to be under operational control were on the U.S. 
Southwest Border with Mexico. Border Patrol sector officials assessed 
the miles under operational control using factors such as operational 
statistics, third-party indicators, intelligence and operational 
reports, resource deployments and discussions with senior Border Patrol 
agents.\25\ Our analysis of the 1,107 border miles Border Patrol 
reported to be under operational control showed that about 12 percent 
were classified as ``controlled,'' which was the highest sustainable 
level for both detection and interdiction at the immediate border. The 
remaining 88 percent of these 1,107 border miles were classified as 
``managed,'' in that interdictions may be achieved after illegal entry 
by multi-tiered enforcement operations.
---------------------------------------------------------------------------
    \25\ Operational statistics generally include the number of 
apprehensions, known illegal border entries, and volume and shift of 
smuggling activity, among other performance indicators. Border Patrol 
officials at sectors and headquarters convene to discuss and determine 
the number of border miles under operational control for each sector 
based on relative risk. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Across the 20 Border Patrol sectors on the National borders, Yuma 
sector on the Southwest Border reported achieving operational control 
for all of its border miles as of the end of fiscal year 2010. In 
contrast, the other 19 sectors reported achieving operational control 
ranging from 0 to 86 percent of their border miles (see fig. 2). Border 
Patrol officials attributed the uneven progress across sectors to 
multiple factors, including a need to prioritize resource deployment to 
sectors deemed to have greater risk of illegal activity as well as 
terrain and transportation infrastructure on both sides of the border. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our analysis of the remaining 7,500 National border miles that 
Border Patrol reported as not under operational control at the end of 
fiscal year 2010 showed that nearly two-thirds of these border miles 
were considered at the level of ``low-level monitored,'' meaning that 
some knowledge was available to develop a rudimentary border control 
strategy, but border security was vulnerable due to limited resources 
or inaccessibility (see fig. 3). The approximate one-third of these 
border miles remaining at the higher ``monitored'' level were judged to 
have substantial detection resources in place, but accessibility and 
resources continue to affect Border Patrol's ability to respond. Border 
Patrol reported that these two levels of control were not acceptable 
for border security. No border miles were classified at the lowest-
level of ``remote/low activity'' as a result of insufficient 
information to develop a meaningful border control strategy. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    DHS transitioned from using operational control as its goal and 
outcome measure for border security in its Fiscal Year 2010-2012 Annual 
Performance Report, which since September 30, 2010, has reduced 
information provided to Congress and the public on program results. 
Citing a need to establish a new border security goal and measure that 
reflect a more quantitative methodology as well as the Department's 
evolving vision for border control, DHS established an interim 
performance measure until a new border control goal and measure could 
be developed. As we previously testified, this interim GPRA measure--
the number of apprehensions on the Southwest Border between the ports 
of entry (POE)--is an output measure, which, while providing useful 
information on activity levels, does not inform on program results and 
therefore could reduce oversight and DHS accountability.\26\ Studies 
commissioned by CBP have documented that the number of apprehensions 
bears little relationship to effectiveness because agency officials do 
not compare these numbers to the amount of illegal activity that 
crosses the border.\27\ CBP officials told us they would continue to 
use interim measures for GPRA reporting purposes until new outcome 
measures are implemented; as of April 2012 CBP officials did not have 
an estimated implementation date for a new border security goal and 
measure.
---------------------------------------------------------------------------
    \26\ GAO, Border Security: Preliminary Observations on Border 
Control Measures for the Southwest Border, GAO-11-374T (Washington, DC: 
Feb. 15, 2011).
    \27\ For example, see Homeland Security Institute, Measuring the 
Effect of the Arizona Border Control Initiative (Arlington, Va.: Oct. 
18, 2005).
---------------------------------------------------------------------------
    DHS stated that it had three efforts underway to improve the 
measures used to assess its programs and activities to secure the 
border. However, as these measures have not yet been implemented, it is 
too early to assess them and determine how they will be used to provide 
oversight of border security efforts. One of two efforts, led by CBP 
with assistance from the Homeland Security Institute (HSI), is to 
develop a Border Condition Index (BCI) that is intended to be a new 
outcome-based measure that will be used to publicly report progress in 
meeting a new border security goal in support of GPRA. The BCI 
methodology would consider various factors, such as the percentage of 
illegal entries apprehended and community well-being. CBP is in the 
process of finalizing the BCI measure and did not provide us with a 
time frame for its implementation. The second CBP effort is to create a 
measure of the change in illegal flow of persons across the Southwest 
Border using a statistical model developed by HSI, which uses data on 
apprehensions and recidivism rates for persons illegally crossing the 
border. DHS officials said that they had not yet determined whether 
results from this model would be used for GPRA reporting in the Fiscal 
Year 2012 DHS Annual Performance Plan, or for internal management 
purposes and reported to Congress in support of the annual budget 
request. The third effort, led by Border Patrol, is to standardize and 
strengthen the metrics that had formerly supported the measure of 
``border miles under effective (operational) control'' that DHS removed 
as a GPRA goal and measure beginning in fiscal year 2011. As of April 
2012, Border Patrol headquarters officials were working to develop 
border security goals and measures, but did not yet have a target time 
frame for implementation.
    While these new metrics are in development, Border Patrol 
operational assessments from fiscal years 2010 and 2012 show that field 
agents continued to use a different and evolving mix of performance 
indicators across Border Patrol sectors to inform the status of border 
security. These performance indicators generally included a mix of 
enforcement measures related to changes in the number of estimated 
known illegal entries and apprehensions, as well as changes in third-
party indicators such as crime rates in border communities. Border 
Patrol officials said that the differences in the mix of performance 
indicators across sectors and time reflected differences in sector 
officials' judgment of what indicators best reflect border security, 
given each sector's unique circumstance. Border Patrol headquarters 
officials said that they were moving to standardize the indicators used 
by sectors on each border but did not yet have a time frame for 
completing this effort.
    Chairwoman Miller and Ranking Member Cuellar this completes my 
prepared statement. I would be happy to respond to any questions you or 
the Members of the subcommittee may have.
      Appendix I: Characteristics of Effective Security Strategies
    We have previously reported on desirable characteristics of 
effective security strategies through our prior work on National 
security planning.\1\ These six characteristics and their elements 
could assist Border Patrol in its efforts to ensure that the 2012-2016 
Border Patrol Strategic Plan (2012-2016 Strategic Plan) is an effective 
mechanism for achieving results.
---------------------------------------------------------------------------
    \1\ See GAO, Combating Terrorism: Evaluation of Selected 
Characteristics in National Strategies Related to Terrorism, GAO-04-
408T (Washington, DC: Feb. 3, 2004), and Rebuilding Iraq: More 
Comprehensive National Strategy Needed to Help Achieve U.S. Goals, GAO-
06-788 (Washington, DC: July 11, 2006).
---------------------------------------------------------------------------
  <bullet> Purpose, scope, and methodology.--This characteristic 
        addresses why the strategy was produced, the scope of its 
        coverage, and the process by which it was developed. Border 
        Patrol could discuss the specific impetus that led to the new 
        strategic plan, for example, a terrorist event or changes in 
        the external environment such as decreases in illegal activity 
        or changes in organizational makeup such as significant 
        increases in resources and capabilities. In addition to 
        describing what the strategy is meant to do and the major 
        functions, mission areas, or activities it covers, a National 
        strategy would address its methodology, such as which 
        organizations drafted or provided input to the document. For 
        example, Border Patrol could identify parties or stakeholders 
        who were consulted in the development of the strategy, such as 
        Federal law enforcement partners, relevant State and local 
        agencies, and Tribal organizations.
  <bullet> Problem definition and risk assessment.--This characteristic 
        addresses the particular National problems and threats the 
        strategy is directed towards. Border Patrol could develop a 
        detailed discussion of primary threats--such as the illegal 
        flow of migrants, smugglers, and other criminals or persons 
        linked with terrorism across the border--as well as their 
        causes and operating environment.\2\ This characteristic also 
        entails a risk assessment, including an analysis of the threat 
        to, and vulnerabilities of, critical assets and operations.\3\ 
        Border Patrol could ensure that the strategic plan is informed 
        by a National risk assessment that includes a comprehensive 
        examination of threats and vulnerabilities across all U.S. 
        borders, to include key infrastructures and assets. A 
        discussion of the quality of data available for this 
        assessment, such as known constraints or deficiencies in key 
        data on estimated volume of persons illegally crossing the 
        border, could also be pertinent.
---------------------------------------------------------------------------
    \2\ If the details of the analyses are classified, an unclassified 
version could include a broad description of the analyses and stress 
the importance of risk assessments to implementing parties.
    \3\ Risk assessment includes a threat assessment, a vulnerability 
assessment, and a consequences assessment (formerly referred to as a 
``criticality'' assessment). For more in-depth discussion of these 
subjects, see GAO, Homeland Security: Key Elements of a Risk Management 
Approach, GAO-02-150T (Washington, DC: Oct. 12, 2002).
---------------------------------------------------------------------------
  <bullet> Goals, subordinate objectives, activities, and performance 
        measures.--This characteristic addresses what the strategy is 
        trying to achieve, steps to achieve those results, and 
        priorities, milestones, and performance measures to gauge 
        results. For example, Border Patrol could identify what the 
        strategic plan is attempting to achieve--a specific end-state 
        such as securing the Nation's borders--and identify and 
        prioritize the specific steps and activities needed to achieve 
        that end-state, such as prioritizing the resourcing of sectors 
        and stations in high-risk border areas. Identifying milestones 
        and performance measures for achieving results according to 
        specific time frames could help to ensure effective oversight 
        and accountability. Border Patrol could, for example, identify 
        milestones for developing an implementation plan, with time 
        frames, which would guide the execution of the strategy and 
        ensure that key steps such as completing a comprehensive risk 
        assessment or developing appropriate outcome measures are 
        achieved. This characteristic also emphasizes the importance of 
        establishing outcome-related performance measures that link 
        back to goals and objectives. For example, Border Patrol could 
        develop outcome measures that show to what extent it has met 
        its goal for securing the Nation's borders.
  <bullet> Resources, investments, and risk management.--This 
        characteristic addresses what the strategy will cost, the 
        sources and types of resources and investments needed, and 
        where resources and investments should be targeted based on 
        balancing risk reductions with costs.\4\ A National strategy 
        could include criteria and appropriate mechanisms to allocate 
        resources based on identified needs. Border Patrol could 
        develop information on the costs of fully implementing the 
        strategic plan, as well as a comprehensive baseline of 
        resources and investments needed by sectors and stations to 
        achieve the mission of securing the Nation's borders. According 
        to our previous work, risk management focuses security efforts 
        on those activities that bring about the greatest reduction in 
        risk given the resources used. The strategic plan could 
        elaborate on the risk assessment mentioned previously and 
        provide guidance on how to manage resources and investments.
---------------------------------------------------------------------------
    \4\ Risk management also involves assessing risk through an 
assessment of threat, vulnerability, and consequence.
---------------------------------------------------------------------------
  <bullet> Organizational roles, responsibilities, and coordination.--
        This characteristic addresses who will be implementing the 
        strategy, what their roles will be compared to others, and 
        mechanisms for them to coordinate their efforts. A strategy 
        could clarify organizations' relationships in terms of 
        partnering and might also identify specific processes for 
        coordination between entities. For example, Border Patrol could 
        build upon relations with Federal, State, local, and Tribal law 
        enforcement organizations by further clarifying how these 
        relationships can be organized to further leverage resources.
  <bullet> Integration and implementation.--This characteristic 
        addresses how a National strategy relates to other strategies' 
        goals, objectives, and activities, and to subordinate levels of 
        Government and their plans to implement the strategy. For 
        example, a National strategy could discuss how its scope 
        complements, expands upon, or overlaps with other National 
        strategies. Border Patrol could ensure that its 2012-2016 
        Strategic Plan explains how it complements the strategies of 
        other CBP agencies, such as the Office of Air and Marine and 
        the Office of Field Operations, which oversees the Nation's 
        ports of entry, as well as U.S. Customs and Border Protection's 
        overall strategy.
     Appendix II: Characteristics of Effective Performance Measures
    Under the Government Performance and Results Act (GPRA), Border 
Patrol performance measures should be developed in the context of the 
Department of Homeland Security (DHS) mission and objectives for 
securing the U.S. border. In its Annual Performance Report for fiscal 
years 2010-2012, DHS discussed border security under Mission 2: 
Securing and Managing Our Borders. Under this mission, there were 
interim Border Patrol performance measures supporting Goal 2.1: Secure 
U.S. Air, Land, and Sea Borders, defined as preventing the illegal flow 
of people and goods across U.S. air, land, and sea borders. There were 
two objectives supporting this goal:
  <bullet> Objective 2.1.1 Prevent illegal entry of people, weapons, 
        dangerous goods and contraband, and protect against cross-
        border threats to health, the environment, and agriculture, 
        while facilitating the safe flow of lawful travel and commerce.
  <bullet> Objective 2.1.2 Prevent illegal export and exit of weapons, 
        proceeds of crime, and other dangerous goods, and the exit of 
        malicious actors.
    We have previously reported on key attributes of successful 
performance measures consistent with GPRA.\1\ Some of these attributes 
suggest that U.S. Customs and Border Protection (CBP) and Border Patrol 
consider the following in efforts to develop and standardize 
performance indicators and metrics:
---------------------------------------------------------------------------
    \1\ Tax Administration: IRS Needs to Further Refine Its Tax Filing 
Season Performance Measures, GAO-03-143 (Washington, DC: Nov. 22, 
2002).
---------------------------------------------------------------------------
  <bullet> Measures should cover the core program activities that 
        Border Patrol is expected to perform.--At the broadest level, 
        the DHS goal suggests measuring Border Patrol outcomes for 
        preventing the illegal flow of people across the border between 
        the ports of entry, as well as the illegal flow of goods. 
        Border Patrol metrics comparing estimated illegal entries to 
        apprehensions could serve to show how its efforts contribute to 
        stemming the illegal flow of people across the border. As of 
        April 2012, Border Patrol did not have a metric for performance 
        related to stemming the illegal flow of goods, such as drugs, 
        between the ports of entry in support of the border security 
        goal. Border Patrol headquarters officials stated that they 
        were not likely to develop a measure, per se, on contraband 
        seizures that would apply across all sectors. According to 
        these officials, although the Border Patrol plays a vital role 
        in seizing contraband at the borders, it views this role as 
        part of the larger security function played by many different 
        agencies at all Government levels.
  <bullet> Measures should be balanced to cover CBP and DHS 
        priorities.--Border Patrol could establish specific performance 
        measures that support CBP and DHS priorities, such as those 
        listed in the objectives supporting the overall DHS goal. For 
        example, in measuring the ability to prevent the illegal flow 
        of persons, Border Patrol, in consultation with CBP and DHS, 
        could choose to separately measure the illegal flow of 
        migrants, smugglers, and other criminals, or persons linked 
        with terrorism, crossing the border between the ports of entry. 
        Similarly, in measuring the ability to prevent the flow of 
        dangerous goods, Border Patrol could choose to separately 
        measure the flow of weapons, illegal drugs, or proceeds of 
        crime, such as bulk cash. Border Patrol could also establish 
        separate performance measures for its ability to prevent the 
        entry and exit of persons and goods across the border.
  <bullet> Measures should link and align with measures of other 
        components and at successive levels of the organization.--DHS 
        could ensure that performance measures established by Border 
        Patrol align with measures at the CBP and Departmental level, 
        as well as those established by other components that 
        contribute toward the goal to secure our borders, such as 
        Customs and Border Protection's Office of Field Operations 
        (OFO), which has responsibility for securing the border at the 
        ports of entry. For example, Border Patrol metrics estimating 
        the flow of illegal entries between the ports of entry aligns 
        with OFO metrics to measure for the illegal flow of persons 
        through the ports of entry,\2\ and metrics of both components 
        could be aligned with an overall effort by CBP to measure the 
        overall flow of persons illegally crossing the Southwest 
        Border. DHS could also choose to establish a performance 
        measure informing on the flow of persons into the United States 
        who overstay their authorized period of admission or other 
        means that could similarly link to the overall DHS estimate of 
        persons illegally residing in the United States. Linking 
        performance measures such as these across the organization 
        informs on how well each program or activity is contributing 
        toward the overall goal to prevent illegal entry of persons, 
        reinforces accountability, and ensures that day-to-day 
        activities contribute to the results the organization is trying 
        to achieve.
---------------------------------------------------------------------------
    \2\ OFO uses a statistical program (model), COMPEX, which estimates 
the total amount of illegal activity passing undetected through U.S. 
ports of entry--including persons transporting illegal drugs, guns, or 
other banned substances--to calculate the apprehension rate and gauge 
the effectiveness of Customs and Border Protection officers to 
interdict them. As of March 2011, OFO officials said COMPEX was used at 
air and land ports of entry, but not sea ports of entry, and at land 
ports of entry it was used for passenger vehicles, but not cargo 
vehicles or pedestrians.
---------------------------------------------------------------------------
  <bullet> Measures should reflect Government-wide priorities, such as 
        quality, timeliness, and cost of service.--Border Patrol could 
        establish performance measures that are consistent with any 
        measures developed by CBP and DHS to reflect the time frames 
        and cost efficiencies in securing the border across locations. 
        For example, CBP and DHS could establish measures that reflect 
        the overall cost or time frame to secure the border as 
        indicated by changes in the illegal flow of persons or goods 
        relative to its investment across components and programs. At 
        the Border Patrol level, such a measure could compare the 
        relative cost efficiencies achieved across border locations 
        that use a different mix of personnel, technology, or 
        strategies to secure the border.
  <bullet> Measures should have a numerical goal, be reasonably free 
        from significant bias or manipulation, and be reliable in 
        producing the same result under similar conditions.--As of 
        April 2012, Border Patrol was working to improve the quality of 
        its border security measures to reflect a more quantitative 
        methodology to estimate the number of illegal entries across 
        the border compared to apprehensions, and other metrics.\3\ 
        However, Border Patrol officials said that comparable 
        performance measures should not be applied to the Northern or 
        Coastal Borders, providing an inconsistent picture of security 
        for the majority of U.S. border miles.\4\ We reported that in 
        circumstances where complete information is not available to 
        measure performance outcomes, agencies could use intermediate 
        goals and measures to show progress or contribution to intended 
        results.\5\ For example, Border Patrol could lack the detection 
        capability necessary as a first step to estimate illegal 
        entries across most of the Northern Border and some other 
        border locations. In these circumstances, Border Patrol could 
        choose to establish performance measures tracking progress in 
        establishing this detection capability. Once Border Patrol 
        achieves the ability to detect illegal activity across its 
        borders, it could then transition to measures for reducing the 
        flow of illegal activity and for interdiction. On the Southwest 
        Border, Border Patrol could also choose to establish 
        intermediate measures in reaching Southwest Border security 
        goals. Such intermediate performance measures could include 
        those that use Global Positioning System data for each 
        apprehension to show Border Patrol progress in apprehending 
        persons at or close to the border compared to enforcement tiers 
        located miles away.
---------------------------------------------------------------------------
    \3\ For example, Border Patrol officials said they were working to 
standardize the methodology used by sectors to estimate the number of 
illegal entries.
    \4\ Border Patrol headquarters officials stated that this was 
because the threat of illegal entries differs across borders.
    \5\ GAO, Agency Performance Plans: Examples of Practices That Can 
Improve Usefulness to Decisionmakers, GAO/GGD/AIMD-99-69 (Washington, 
DC: Feb. 26, 1999).

    Mrs. Miller. Thank you very much for that testimony, Ms. 
Gambler.
    The Chairwoman now recognizes Dr. Rosenblum for his 
testimony.

   STATEMENT OF MARC R. ROSENBLUM, SPECIALIST IN IMMIGRATION 
             POLICY, CONGRESSIONAL RESEARCH SERVICE

    Mr. Rosenblum. Thank you. Chairman Miller, Ranking Member 
Cuellar, Ranking Member Thompson, and Members of the 
subcommittee, I am honored to present testimony today on behalf 
of the Congressional Research Service.
    My testimony makes three main observations. First, the U.S. 
border in 2012 is a very different place than it was in the 
mid-1990s when the core of the current Border Patrol strategy 
was developed. Second, the changes at the border have entailed 
costs, and I will discuss a few of them. These observations 
lead to the third, which is that the new Border Patrol strategy 
comes at an appropriate time and raises important questions. In 
some ways, we are at a critical juncture with respect to how we 
define border security and how we understand risks and threats 
to the United States.
    Let me begin with the changes at U.S. borders. The core of 
the current strategy since the mid-1990s is prevention through 
deterrence--the idea that the concentration of personnel, 
infrastructure, and surveillance technology along heavily-
trafficked regions of the border will discourage unauthorized 
aliens from attempting to enter the United States. A new 
strategy was published in 2004 that continued to emphasize 
investments along the border and in the post-9/11 environment 
also focused on intelligence to assess risk and to target 
enforcement to the greatest security threats, including 
potential terrorists. At the same time, DHS announced the 
Secure Border Initiative, a National program emphasizing 
personnel, surveillance technology, and fencing, as well as 
interior enforcement and new removal practices.
    My written testimony includes several data points that show 
that these plans have largely been implemented, and we have 
heard some about it already. One example is the growth in 
Border Patrol personnel: Slow growth in the 1980s, faster 
growth in the 1990s, and even faster growth in the most recent 
decade, all of it concentrated primarily on the Southwest 
Border.
    More importantly, there is an increasing body of evidence 
suggesting that these investments have begun to pay off. As we 
have already heard, apprehensions of unauthorized migrants, 
while an imperfect measure, are at their lowest level in about 
40 years. My written testimony includes several additional 
indicators that suggest falling illegal migration.
    Several factors have contributed to this trend, as the 
Chairwoman noted, including the U.S. economic downturn, crime 
and violence in northern Mexico, Mexico's strong economic 
recovery since 2010, demographic changes in Mexico. But the 
data suggests that U.S. enforcement efforts are likely an 
important contributing factor behind declining illegal 
migration.
    This figure illustrates one of the causal dynamics. The 
figure shows two measures of the fees migrants pay to be 
smuggled from Mexico to the United States. Smuggling fees were 
essentially flat during the 1980s and then rose sharply 
beginning in the early 1990s through the first half of the last 
decade. So the figures suggest that it was relatively easy to 
cross the border during the 1980s but became much more 
difficult to do so during the 1990s as enforcement intensified.
    These gains at the border have entailed costs. One way to 
think about cost is in terms of direct appropriations, and my 
written testimony describes the dramatic growth in border 
spending. My written testimony also identifies a number of 
unintended consequences of border enforcement on migration 
flows and a number of indirect costs of border enforcement on 
crime, migrant mortality, the environment, border communities, 
and U.S. foreign relations.
    Border enforcement also entails opportunity costs. How does 
funding for enforcement between ports of entry compete with 
other DHS priorities and with priorities outside of DHS? For 
example, this figure compares resources that have gone to 
border security between ports of entry to resources for 
inspections and enforcement at ports of entry. Funding for 
enforcement between the ports has more than doubled since 2004, 
while funding at the ports has increased by less than a third. 
FTEs, full-time employment, lines for enforcement between the 
ports has increased 99 percent, while the FTEs at the ports 
have increased just 12 percent.
    We often think of border security in terms of how many 
unauthorized migrants make it through the Arizona desert, but 
the 2012 Strategy highlights the Border Patrol and DHS's 
broader approach to risk management. Four types of 
transnational threats may be especially important to consider: 
Weapons of mass destruction, drugs and other contraband, 
potential terrorists and other bad actors, and then regular 
unauthorized migrants. These threats have different risk 
profiles. Most experts agree that WMD are a high-consequence, 
low-probability threat. Regular illegal migration is a lower-
consequence, higher-probability threat. The entry of illegal 
drugs falls somewhere in between on both of these dimensions.
    The threats also differ across border zones. The Southwest 
Border between ports of entry is a point of vulnerability with 
respect to illegal migration and marijuana smuggling. But WMDs 
and other drugs and contraband, both are considered more likely 
to be smuggled into the United States through a port of entry 
rather than carried across the border. Given existing 
infrastructure, the Southwest Border also may not be the 
greatest point of vulnerability with respect to terrorists and 
other bad actors, who may be more likely to attempt illegal 
entry through a port or to enter the United States from Canada 
or at a Coastal Border.
    Given the gains we have made at the border, the new Border 
Patrol strategy offers a moment to think about the broader 
context and bottom-line goals for U.S. border security. What 
are the most serious security threats confronted by the United 
States? Where are its greatest points of vulnerability? What 
additional investments in policies may most effectively reduce 
risks to the United States?
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The statement of Mr. Rosenblum follows:]

                Prepared Statement of Marc R. Rosenblum
                              May 8, 2012

    Chairman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, I am honored to present testimony today on behalf of the 
Congressional Research Service. My testimony today makes three main 
observations:
  <bullet> The U.S. border in 2012 is a very different place than it 
        was in the mid-1990s when the former U.S. Immigration and 
        Naturalization Service (INS) developed the core of the current 
        U.S. Border Patrol strategy. The U.S. Border Patrol (USBP) and 
        other components within the Department of Homeland Security 
        (DHS) have made major changes at the border and in the broader 
        immigration control system; and these changes appear to have 
        contributed to a sharp reduction in illegal migration, though 
        increased enforcement is just one of many factors that explains 
        the reduction.
  <bullet> These gains entail costs, including direct appropriations 
        for border security, indirect costs, and unintended 
        consequences of the current approach, and opportunity costs 
        that come from high investments between ports of entry on the 
        Southwest Border, arguably at the expense of competing 
        priorities.
  <bullet> The first two observations suggest that the new USBP comes 
        at an appropriate time and raises important questions. The 
        USBP's mission is to prevent illegal entries between ports of 
        entry, and most of its resources are on the Southwest Border. 
        Yet many of the most serious transnational criminal and 
        terrorist threats to the United States may be more likely to 
        exploit points of vulnerability at ports of entry (POE) and at 
        Northern and Coastal Borders, rather than to risk entry across 
        the Southwest Border in light of existing enforcement measures 
        there.
     the current border strategy: prevention through deterrence \1\
---------------------------------------------------------------------------
    \1\ This section and much of this testimony draws heavily on CRS 
Report R42138, Border Security: Immigration Enforcement Between Ports 
of Entry, by Marc R. Rosenblum (hereinafter CRS, Immigration 
Enforcement Between Ports of Entry); please see that report for a 
fuller discussion of these issues and additional citations.
---------------------------------------------------------------------------
    Since the 1990s, migration control at the border has been guided by 
a strategy of ``prevention through deterrence''--the idea that the 
concentration of personnel, infrastructure, and surveillance technology 
along heavily trafficked regions of the border will discourage 
unauthorized aliens from attempting to enter the United States. The 
strategy was developed in 1994 as part of the former INS' ``National 
Strategic Plan'' (NSP) in response to a widespread perception that the 
Southwest Border was being overrun by unauthorized immigration and that 
drug smuggling was a serious threat along the Southwest Border. The 
plan described a multi-phased approach. Implementation began with 
Operations ``Hold the Line'' and ``Gatekeeper'' in El Paso, TX, and San 
Diego, CA; and the plan called for expanding enforcement in three 
additional phases to cover the remaining areas of the Southwest Border 
followed by the Gulf Coast and Northern Borders. In descending order of 
importance, the plan emphasized personnel, equipment, technology, and 
tactical infrastructure.
    Shortly after the creation of DHS, USBP began to formulate a new 
National strategy to better reflect the realities of the post-9/11 
security landscape. Published in March 2004, the strategy places 
greater emphasis on interdicting terrorists and features five main 
objectives: (1) Establishing the substantial probability of 
apprehending terrorists and their weapons as they attempt to enter 
illegally between the ports of entry; (2) deterring illegal entries 
through improved enforcement; (3) detecting, apprehending, and 
deterring smugglers of humans, drugs, and other contraband; (4) 
leveraging ``Smart Border'' technology to multiply the deterrent and 
enforcement effect of agents; and (5) reducing crime in border 
communities, thereby improving the quality of life and economic 
vitality of those areas.\2\ Thus, the 2004 Strategy builds on 
``prevention through deterrence,'' but places added emphasis on the 
rapid deployment of USBP agents to respond to emerging threats. This 
approach depends on tactical, operational, and strategic intelligence 
to assess risk and target enforcement efforts, relying on surveillance 
systems and close coordination with U.S. Customs and Border 
Protection's (CBP) Office of Intelligence and other intelligence 
apparatuses. The plan formulates different strategies for each of the 
agency's three operational theaters: The Southwest Border, the Northern 
Border, and the coastal waters around Florida and Puerto Rico.
---------------------------------------------------------------------------
    \2\ Department of Homeland Security, Bureau of Customs and Border 
Protection, ``National Border Patrol Strategy,'' 2004.
---------------------------------------------------------------------------
    In November 2005, the Department of Homeland Security announced a 
comprehensive multi-year plan, the Secure Border Initiative (SBI), to 
secure U.S. borders and reduce illegal migration, reiterating many of 
the themes from the 1994 and 2004 Border Patrol Strategies. Under SBI, 
DHS announced plans to obtain operational control of the Northern and 
Southern Borders within 5 years by focusing attention in five main 
areas: Increased staffing, improved detention and removal capacity, 
surveillance technology, fencing and tactical infrastructure, and 
interior immigration enforcement.\3\ DHS noted that these programs 
initially would focus on the southwest land border between official 
ports of entry and that it would deploy a mix of personnel, technology, 
infrastructure, and response assets in order to ``provide maximum 
tactical advantage in each unique border environment.''\4\
---------------------------------------------------------------------------
    \3\ DHS, ``Fact Sheet: Secure Border Initiative,'' http://
www.dhs.gov/xnews/releases/press_release_0794.shtm.
    \4\ Department of Homeland Security, DHS FY2008 Congressional 
Budget Justification, p. CBP-BSFIT 3.
---------------------------------------------------------------------------
                        CHANGES SINCE THE 1990S

    With the implementation of prevention through deterrence beginning 
in the 1990s and elements of SBI since 2005, U.S. border security and 
immigration enforcement look quite different today. Changes include: 
(1) New enforcement resources at the border, (2) different enforcement 
practices at the border, and (3) additional modifications to the 
migration control system at ports of entry and within the United 
States. Most importantly, a growing body of evidence suggests that 
illegal migration to the United States has fallen to its lowest level 
in decades, although it is not possible to describe how much of the 
decrease is a function of border enforcement versus several other 
factors that also likely have contributed to reduced flows.

Additional Resources: Border Patrol Personnel
    Congress has passed at least four laws since 1986 authorizing 
increases in Border Patrol personnel.\5\ Appropriators generally have 
supported such growth; and as Figure 1 illustrates overall USBP 
staffing has grown about ten-fold from 2,268 in 1980 to 21,370 today. 
The Border Patrol numbered just 4,287 when the Prevention through 
Deterrence strategy was articulated in 1994; Border Patrol numbers 
roughly doubled during the remainder of the 1990s as the strategy was 
implemented; and numbers have more than doubled again in the post-9/11 
period.\6\
---------------------------------------------------------------------------
    \5\ The Immigration Act of 1990 (Pub. L. 101-649), the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 (IIRIRA, 
Pub. L. 104-208, Div. C), the Uniting and Strengthening America by 
Providing Appropriate Tools Required to Intercept and Obstruct 
Terrorism Act (USA PATRIOT, Pub. L. 107-56), and the Intelligence 
Reform and Terrorism Prevention Act (Pub. L. 108-458).
    \6\ CRS analysis based on data from Syracuse University 
Transactional Records Access Clearinghouse and USBP Office of 
Legislative Affairs. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These data on USBP personnel understate law enforcement staffing 
along U.S. borders, because numerous other Federal, State, local, and 
Tribal law enforcement officials also operate in the border region, 
including 5,551 CBP officers at Southwest Border POEs in 2011.\7\ About 
a quarter of U.S. Immigration and Customs Enforcement's (ICE) 20,000 
personnel were deployed to the Southwest Border in fiscal year 2011,\8\ 
along with about 1,200 National Guard troops.\9\
---------------------------------------------------------------------------
    \7\ CBP Office of Legislative Affairs, Sept. 20, 2011.
    \8\ Department of Homeland Security, ``Secure and Manage Our 
Borders,'' http://www.dhs.gov/xabout/gc_1240606351110.shtm.
    \9\ Also see CRS Report R41286, Securing America's Borders: The 
Role of the Military, by R. Chuck Mason.
---------------------------------------------------------------------------
Additional Resources: Border Fencing
    The former INS installed the first border fencing beginning in 
1990, eventually covering the 14 miles of the border east of the 
Pacific Ocean near San Diego. Congress expressly authorized the 
construction and improvement of fencing and other barriers under 
Section 102(a) of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996 (IIRIRA; Pub. L. 104-208, Div. C), which 
also required the completion of a triple-layered fence along the 14 
miles near San Diego. The Secure Fence Act of 2006 (Pub. L. 109-367) 
amended IIRIRA to require double-layered fencing along five segments of 
the Southwest Border, totaling about 850 miles.\10\ IIRIRA was amended 
again by the Consolidated Appropriations Act, Fiscal Year 2008 (Pub. L. 
110-161), which requires the Secretary of Homeland Security to 
construct reinforced fencing ``along not less than 700 miles of the 
Southwest Border where fencing would be most practical and 
effective.''\11\ The Act further specifies, however, that the Secretary 
of Homeland Security is not required to install ``fencing . . . in a 
particular location . . . if the Secretary determines that the use or 
placement of such resources is not the most appropriate means to 
achieve and maintain operational control over the international border 
at such location.''\12\ As of April 11, 2012, DHS had installed 352 
miles of pedestrian fencing and 299 miles of vehicle fencing (total of 
651 miles) out of 652 miles DHS had identified as appropriate for 
fencing and barriers.\13\
---------------------------------------------------------------------------
    \10\ Pub. L. 109-367 identified five specific stretches of the 
border where fencing was to be installed; CBP Congressional Affairs 
provided CRS with this estimate of the total mileage covered by the law 
on September 25, 2006.
    \11\ Pub. L. 110-161, Div. E,  564.
    \12\ Ibid.
    \13\ CBP Office of Congressional Affairs communication with CRS, 
April 11, 2012.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Additional Resources: Surveillance Assets
    The Border Patrol utilizes advanced technology to augment its 
agents' ability to patrol the border. Under a series of related 
programs since the 1990s,\14\ the border surveillance system has 
consisted of a network of Remote Video Surveillance (RVS) systems 
(including cameras and infrared systems) and sensors (including 
seismic, magnetic, and thermal detectors) linked into a computer 
network. USBP personnel in a central location screen the network, 
monitor locations where sensor alarms are tripped, and alert field 
agents to intrusions and coordinate responses. These systems have 
struggled to meet deployment time lines and to provide USBP with the 
promised level of ``situational awareness'' with respect to illegal 
entries,\15\ and have come under criticism for non-competitive 
contracting practices, inadequate oversight of contractors, and cost 
overruns.\16\ DHS ordered a Department-wide assessment of the most 
recent surveillance system, SBInet, in January, 2010 and terminated the 
program in January 2011.\17\
---------------------------------------------------------------------------
    \14\ The former INS' Integrated Surveillance Information System 
(ISIS) was initiated in 1998. ISIS was folded into a broader border 
surveillance system named the America's Shield Initiative (ASI) in 
2005, and ASI was made part of DHS' Secure Border Initiative (SBI) the 
following year, with the surveillance program renamed SBInet.
    \15\ See e.g., testimony of DHS Inspector General Richard L. 
Skinner before the House Homeland Security Committee, Subcommittee on 
Management, Integration, and Oversight, New Secure Border Initiative, 
109th Cong., 1st sess., December 16, 2005; and U.S. Government 
Accountability Office (GAO), Secure Border Initiative: Technology 
Deployment Delays Persist and the Impact of Border Fencing Has Not Been 
Assessed, GAO-09-896, 2009, http://www.gao.gov/new.items/d09896.pdf.
    \16\ See DHS Inspector General (IG), Secure Border Initiative: DHS 
Needs to Address Significant Risks in Delivering Key Technology 
Investment, DHS OIG-09-80, Washington, DC, June 2009; and DHS IG, 
Controls Over SBInet Program Cost and Schedule Could Be Improved, DHS 
OIG-10-96, Washington, DC, June 2010.
    \17\ See DHS, Report on the Assessment of the Secure Border 
Initiative Network (SBInet) Program, Washington, DC, 2010; DHS, Annual 
Financial Report: Fiscal Year 2011, Washington, DC, 2011, p. 14.
---------------------------------------------------------------------------
    Under DHS' new Alternative Surveillance Technology Plan, DHS plans 
to deploy a mix of RVS systems consisting of fixed daylight and 
infrared cameras that transmit images to a central location, mobile 
surveillance systems mounted on trucks and monitored in the truck's 
passenger compartment, hand-held equipment, and existing SBInet 
integrated towers.\18\ In addition to these ground-based surveillance 
assets, CBP's Office of Air and Marine (OAM) deploys 270 aircraft and 
280 marine vessels to conduct surveillance operations and contribute to 
the interdiction of unauthorized aliens and other smuggling operations, 
and OAM operates nine unmanned aircraft systems along the borders.
---------------------------------------------------------------------------
    \18\ Statement of Randolph C. Hite, Director, Information 
Technology Architecture and System Issues, Testimony Before the 
Subcommittees on Management, Investigations, and Oversight; and Border, 
Maritime, and Global Counterterrorism; Committee on Homeland Security, 
House of Representatives, Secure Border Initiative: DHS Needs to Follow 
Through on Plans to Reassess and Better Manage Key Technology Program, 
110th Cong., 2nd Sess., Thursday, June 17, 2010.
---------------------------------------------------------------------------
New Border Enforcement Practices: Enforcement with Consequences
    Since about 2005, CBP has been phasing in a new set of enforcement 
practices that it now describes as ``enforcement with consequences.'' 
Historically, immigration agents returned most people apprehended at 
the border to Mexico with minimal processing or (in the case of non-
Mexicans) often released them pending a formal deportation or removal 
hearing. The enforcement with consequences approach seeks to minimize 
such ``low consequence'' responses in order to raise the costs to 
migrants of being apprehended, to make it more difficult for illegal 
migrants to reconnect with smugglers following a failed entry attempt, 
and thereby to discourage people who have been apprehended from making 
subsequent efforts to enter the United States illegally.\19\ The 
approach includes the following elements:
---------------------------------------------------------------------------
    \19\ See U.S. Congress, House Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, Does Administrative 
Amnesty Harm our Efforts to Gain and Maintain Operational Control of 
the Border, testimony of U.S. Border Patrol Chief Michael J. Fisher, 
112th Cong., 1st sess., October 4, 2011.
---------------------------------------------------------------------------
  <bullet> Expedited removal (ER).--ER is a provision of the INA that 
        allows certain arriving aliens without documents to be formally 
        removed from the United States without an inadmissibility 
        hearing or an appearance before an immigration judge. Thus, ER 
        orders can be implemented quickly and at minimal expense, but 
        carry the same administrative penalties as standard removal 
        orders. After being added to the INA in 1996, ER initially was 
        reserved for aliens apprehended at ports of entry. With a 
        series of notices in 2002-2006, ER was expanded to cover 
        certain aliens who had entered the United States within the 
        previous 2 weeks and were apprehended within 100 miles of any 
        U.S. border.\20\
---------------------------------------------------------------------------
    \20\ See CRS Report RL33109, Immigration Policy on Expedited 
Removal of Aliens, by Alison Siskin and Ruth Ellen Wasem. Under the 
2006 policy, most Mexicans apprehended at the Southwest Border were not 
placed in expedited removal proceedings unless they had previous 
criminal convictions.
---------------------------------------------------------------------------
  <bullet> Detention.--Non-Mexicans apprehended at the border usually 
        are placed in removal proceedings prior to being returned by 
        air to their country of origin.\21\ Historically, backlogs in 
        the immigration court system meant that most such aliens were 
        released on bail or their own recognizance for some period of 
        time between their apprehension and removal hearing; and many 
        failed to show up for their hearings.\22\ Under a policy 
        implemented in August 2006, DHS now detains 100% of removable 
        non-Mexicans apprehended at the border until their removal 
        orders are finalized and executed.\23\
---------------------------------------------------------------------------
    \21\ Most Mexicans were returned by bus with minimal processing--an 
option not available for aliens from most countries.
    \22\ DHS estimated that there were 623,292 alien ``absconders'' in 
August 2006, many of whom had failed to appear for removal hearings 
after being apprehended at the border. See Doris Meissner and Donald 
Kerwin, DHS and Immigration: Taking Stock and Correcting Course, 
Migration Policy Institute, Washington, DC, February 2009, p. 44, 
http://www.migrationpolicy.org/pubs/DHS_Feb09.pdf.
    \23\ CBP, ``DHS Secretary Announces End to `Catch and Release' on 
Southern Border,'' http://www.cbp.gov/xp/cgov/admin/c1_archive/
messages/end_catch_release.xml.
---------------------------------------------------------------------------
  <bullet> Immigration-related criminal charges.--Unauthorized aliens 
        apprehended at the border may face Federal immigration charges, 
        but historically most have not been charged with a crime.\24\ 
        In cooperation with the Department of Justice, CBP has worked 
        since 2005 to bring criminal charges against such aliens more 
        often. The most systematic effort in this regard has been 
        Operation Streamline, a program through which CBP works with 
        U.S. Attorneys and District Court judges in border districts to 
        expedite criminal justice processing. Operation Streamline was 
        established in the USBP's Del Rio Sector in December 2005, and 
        expanded to four additional sectors by June 2008.\25\
---------------------------------------------------------------------------
    \24\ Aliens apprehended at the border may face criminal charges for 
illegal entry (8 U.S.C.  1325) or (on a subsequent apprehension) 
illegal re-entry (8 U.S.C.  1326), and in some cases they may face 
charges related to human smuggling (8 U.S.C.  1324) and visa and 
document fraud (8 U.S.C.  1546). See CRS Report RL32480, Immigration 
Consequences of Criminal Activity, by Michael John Garcia. In contrast, 
unlawful presence, absent additional factors, is a civil violation.
    \25\ According to CBP Office of Legislative Affairs, November 1, 
2011, Operation Streamline was initiated in the Yuma Sector in December 
2006, Laredo Sector in October 2007, Tucson Sector in January 2008, and 
Rio Grande Valley Sector in June 2008. A total of 164,639 people were 
processed through Operation Streamline through the end of fiscal year 
2011.
---------------------------------------------------------------------------
  <bullet> Remote repatriation.--Under the Alien Transfer Exit Program 
        (ATEP), certain Mexicans apprehended near the border are 
        repatriated to border ports hundreds of miles away--typically 
        moving people from Arizona to Texas or California.\26\ Under 
        the Mexican Interior Repatriation Program (MIRP), certain 
        Mexican nationals are repatriated to their home towns within 
        Mexico, rather than being returned just across the border.\27\
---------------------------------------------------------------------------
    \26\ See U.S. Congress, House Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, Does Administrative 
Amnesty Harm our Efforts to Gain and Maintain Operational Control of 
the Border, testimony of U.S. Border Patrol Chief Michael J. Fisher, 
112th Cong., 1st sess., October 4, 2011.
    \27\ Ibid.
---------------------------------------------------------------------------
    To manage these diverse programs, CBP has developed a ``Consequence 
Delivery System . . . to uniquely evaluate each subject and identify 
the ideal consequences to deliver to impede and deter further illegal 
activity.''\28\ According to public comments by former CBP Commissioner 
Alan Bersin, the goal of the program, in certain sectors of the border, 
is to ensure that virtually everyone who is apprehended faces ``some 
type of consequence,'' and to eliminate voluntary return in most 
cases.\29\
---------------------------------------------------------------------------
    \28\ Ibid.
    \29\ Alan Bersin, The State of US/Mexico Border Security, Center 
for American Progress, August 4, 2011, http://www.americanprogress.org/
events/2011/08/usmexicoborder.html. Bersin indicated that certain 
aliens would not be subject to enforcement with consequences, such as 
aliens younger than 18 years old traveling without a parent or legal 
guardian.
---------------------------------------------------------------------------
    Figure 3 depicts two indicators of enforcement with consequences: 
Removal cases initiated by the Border Patrol and immigration-related 
criminal charges brought in the Federal court system, including illegal 
entry and illegal re-entry. As the figure indicates, the number of 
immigration-related criminal cases tripled between fiscal year 1999 and 
fiscal year 2010 (from 28,764 to 84,388 cases); and USBP removals 
increased fourteen-fold from 12,867 to 189,653. These increases 
occurred at a time of falling alien apprehensions, as described below, 
so that the ratio of such consequences relative to all USBP 
apprehensions increased from 1% in 1999 to 58% in 2010.\30\
---------------------------------------------------------------------------
    \30\ Not all people facing charges were apprehended by USBP, and 
not all aliens subject to removal were apprehended during the same 
fiscal year. Thus, the proportion of aliens facing enforcement with 
consequences as described in Figure 3 is not precisely defined as a 
percentage of USBP apprehensions, though USBP apprehensions represent 
the great majority of such cases.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Additional Changes to the Migration Control System
    Changes to the Border Patrol's enforcement resources and practices 
have not occurred in isolation. While the focus of this hearing is on 
the Border Patrol, the effects of Border Patrol policies also depend on 
CBP enforcement efforts at POEs and on immigration enforcement within 
the United States. Without addressing them in detail, four changes 
since the 1990s have further contributed to a changed immigration 
control environment: More robust screening at ports of entry;\31\ 
expanded removals from the interior, including through the Secure 
Communities program;\32\ the expansion of the E-Verify electronic 
employment eligibility verification system and other worksite 
enforcement efforts,\33\ and the passage of dozens of State and local 
laws--some of which are subject to legal challenges--related to the use 
of E-Verify, the role of State and local law enforcement officials in 
immigration enforcement, and other measures to combat illegal 
migration.\34\
---------------------------------------------------------------------------
    \31\ See archived CRS Report RL31733, Port and Maritime Security: 
Background and Issues for Congress, by John Frittelli; and archived CRS 
Report RL32234, U.S. Visitor and Immigrant Status Indicator Technology 
(US-VISIT) Program, by Lisa M. Seghetti and Stephen R. Vina.
    \32\ See CRS Report R42057, Interior Immigration Enforcement: 
Programs Targeting Criminal Aliens, by Marc R. Rosenblum and William A. 
Kandel.
    \33\ See CRS Report R40446, Electronic Employment Eligibility 
Verification, by Andorra Bruno.
    \34\ See CRS Report R41423, Authority of State and Local Police to 
Enforce Federal Immigration Law, by Michael John Garcia and Kate M. 
Manuel.
---------------------------------------------------------------------------
                    border enforcement outcomes \35\
---------------------------------------------------------------------------
    \35\ For a fuller discussion of enforcement outcomes, see CRS, 
Immigration Enforcement Between Ports of Entry.
---------------------------------------------------------------------------
Total Apprehensions
    For many years, the INS and DHS have used USBP apprehensions as a 
proxy to measure illegal entries,\36\ and changes in apprehensions as 
an indicator of border enforcement outcomes. As Figure 4 illustrates, 
total USBP apprehensions have fallen each year since 2005, and the 2011 
total of 328,000 apprehensions was less than one-fifth the 1.68 million 
apprehensions recorded in 2000. Apprehensions in 2011 were at their 
lowest point since 1970.
---------------------------------------------------------------------------
    \36\ See e.g., CBP, Securing America's Borders: CBP Fiscal Year 
2010 in Review Fact Sheet, Washington, DC, March 15, 2011, http://
www.cbp.gov/xp/cgov/newsroom/fact_sheets/cbp_overview/
fy2010_factsheet.xml.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While apprehensions data are useful indicators of illegal inflow 
trends, they are problematic indicators of unauthorized migration for 
at least three reasons. First, apprehensions data exclude successful 
unauthorized aliens, certain unsuccessful unauthorized aliens 
(including aliens who are denied entry by CBP officers at ports of 
entry, aliens who are apprehended by law enforcement officials other 
than USBP, and aliens who die while crossing the border); and would-be 
unauthorized aliens who are deterred at the border or who never attempt 
to migrate at all. These exclusions mean that apprehensions data are an 
incomplete picture both of unauthorized migration and of migration 
enforcement. Second, apprehensions data count events rather than 
people. Thus, an unauthorized migrant who is caught trying to enter the 
country three times in one year counts as three apprehensions in the 
data set. Apprehensions data therefore may over-estimate the actual 
number of people trying to cross the border. Third, apprehensions are a 
function of illegal flows and of the unknown effectiveness of border 
enforcement. Thus, fewer apprehensions may reflect fewer attempts at 
illegal entry, lower apprehension rates for the same number of entries, 
or some combination of the two.\37\ The Border Patrol estimates the 
number of successful illegal entries (``get-aways'') and the number 
deterred at the border (``turn backs''), but these data are limited by 
the agency's surveillance capacity, among other factors, and are not 
available to outside researchers.\38\
---------------------------------------------------------------------------
    \37\ Also see U.S. Congress, House Committee on Appropriations, 
Subcommittee on Homeland Security, Department of Homeland Security 
Appropriations Bill, 2012, Report to Accompany H.R. 2017, 112th Cong., 
1st sess., May 6, 2011, H. Rept. 112-91 (Washington: GPO, 2011), p. 33.
    \38\ According to CBP's Office of Legislative Affairs (December 22, 
2011) and other sources, CBP reportedly plans to incorporate its 
estimate of successful illegal entries into a soon-to-be-released 
``border conditions index.''
---------------------------------------------------------------------------
    Given these limits, it is useful to consider several additional 
data sources that offer insight into illegal migration and the 
effectiveness of border enforcement and migration control efforts.

Unique Apprehensions
    The DHS Automated Biometric Identification System (IDENT) is a 
biometric database that includes about 138 million individual 
records.\39\ Since late 1999, the system has been deployed to all USBP 
stations, allowing DHS to track individual case histories of most 
people apprehended by USBP, among others. The IDENT database provides 
additional insight into enforcement outcomes by describing the number 
of unique individuals apprehended by USBP per year, rather than the 
number of apprehension events. As Figure 5 indicates, the number of 
unique individuals apprehended by USBP fell from about 880,000 in 2000 
to about 618,000 in 2003 before climbing back to about 818,000 in 2005 
and then dropping sharply to about 269,000 individuals in 2011. Thus, 
perhaps more importantly, the ratio of total apprehensions to unique 
individuals apprehended also fell during this period: from an average 
of 1.63 apprehensions per individual in 2000 to an average of 1.27 
apprehensions per individual in 2011. Figure 5 also presents IDENT data 
on the percentage of unique subjects apprehended by the Border Patrol 
more than once in a fiscal year (the recidivism rate). The recidivism 
rate peaked at 28% in 2007 and fell to 20% in fiscal year 2011, the 
lowest level since USBP began collecting these data.
---------------------------------------------------------------------------
    \39\ US-VISIT Office of Legislative Affairs, December 16, 2011. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Smuggling Fees
    The great majority of unauthorized migrants to the United States 
make use of human smugglers to help them enter the United States.\40\ 
Migrants' reliance on human smugglers, along with prices charged by 
smugglers, are an additional potential indicator of the effectiveness 
of U.S. border enforcement efforts, as more effective enforcement 
should increase the costs to smugglers of bringing migrants across the 
border, with smugglers passing such costs along to their clients in the 
form of higher fees.\41\ Figure 6 summarizes available time-series data 
describing average smuggling fees paid by certain unauthorized migrants 
for transport from Mexico to the United States, based on surveys 
conducted with unauthorized migrants in the United States and in Mexico 
(i.e., after migrants had returned home). According to these data, 
smuggling fees were mostly flat throughout the 1980s, at about $750-
$1,000 (in 2010 dollars), with an average annual growth rate of less 
than 1.5%. Smuggling fees began to rise during the early 1990s, climbed 
by over 7% per year throughout the 1990s and early 2000s to $2,400-
$2,700 in 2005-2006, and have remained roughly flat since that time--
possibly because the economic downturn since 2007 has placed a cap on 
what smugglers may charge.\42\ These data suggest that crossing the 
border illegally became more difficult (or at least most expensive) in 
the decade after the USBP began to implement its National strategy.
---------------------------------------------------------------------------
    \40\ See Princeton University Mexican Migration Project, ``Access 
to Border-Crossing Guides and Family/Friends on First Undocumented 
Trip,'' http://mmp.opr.princeton.edu/results/002coyote-en.aspx.
    \41\ See Bryan Roberts, Gordon Hanson, and Derekh Cornwell, et al., 
An Analysis of Migrant Smugglng Costs Along the Southwest Border, DHS 
Office of Immigration Statistics, Washington, DC, November 2010, http:/
/www.dhs.gov/xlibrary/assets/statistics/publications/ois-smuggling-
wp.pdf.
    \42\ See attachment for sources. 

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Probability of Apprehension
    Social science research also provides data (reported by migrants in 
the United States and Mexico) on the probability that migrants will be 
apprehended while attempting to enter the United States illegally. 
Existing data sources indicate that many migrants are apprehended one 
or more times prior to successfully entering the United States. 
According to one source, a growing proportion of Mexicans who attempt 
to migrate illegally are apprehended at the border at least once: 28% 
for one sample of migrants who attempted to enter prior to 1986 versus 
41% for aliens attempting entry in 2002-2009.\43\ Another major survey 
finds that the probability of being apprehended on any given crossing 
has hovered around 25% since 1965.\44\ Yet both surveys have found that 
the vast majority of migrants who attempt to cross the border 
eventually succeed.\45\ Taken together, these data offer additional 
evidence that it became somewhat more difficult to cross the Southwest 
Border illegally in the decade after 1994, but that the border remains 
broadly vulnerable to illegal crossers.
---------------------------------------------------------------------------
    \43\ University of California--San Diego (UCSD) Mexico Migration 
Field Research Project, data provided to CRS Sept. 23, 2010.
    \44\ Princeton University Mexican Migration Project, ``Probability 
of Apprehension on an Undocumented Border Crossing,'' http://
mmp.opr.princeton.edu/results/008apprehension-en.aspx. The probability 
of apprehension fell somewhat during the 1990s to less than 20% in 
2001, possibly as a function of increased use of smugglers during this 
period. This trend was reversed between 2001 and 2006, as the 
probability of apprehension climbed to an all-time high of about 35%; 
but by 2011 the probability of apprehension had once again fallen below 
20%.
    \45\ In the UCSD surveys, 98% of intending migrants from Jalisco, 
Mexico eventually managed to enter the United States before 1986, and 
97% eventually succeeded in 2002-2009. Overall, the UCSD researchers 
recorded eventual success rates of 92% or higher in four different 
surveys conducted between 2005 and 2009. CRS' analysis of data provided 
by the Princeton survey suggests that 99% of Mexicans surveyed reported 
being able to enter the United States illegally after one or more 
attempts.
---------------------------------------------------------------------------
Survey Data from Mexico
    The Pew Hispanic Center has analyzed survey data collected in 
Mexico from illegal migrants who were transferred from U.S. custody to 
Mexican authorities. In research published in 2012, Pew reports the 
following findings:
  <bullet> Mexicans repatriated in 2010 were more likely to have lived 
        in the United States for a long period of time than Mexicans 
        surveyed during earlier periods. In 2010, 27% of repatriated 
        Mexicans had lived in the United States for at least a year, 
        compared to 6% in 2005 and 5% in 2000. And 17% of repatriated 
        Mexicans had lived in the United States for at least 5 years, 
        compared to just 2% in 2005.\46\
---------------------------------------------------------------------------
    \46\ See Jeffrey Passel, D'Vera Cohn, and Ana Gonzalez-Barrera, Net 
Migration from Mexico Falls to Zero--And Perhaps Less, Pew Hispanic 
Center, Washington, DC, 2012, http://www.pewhispanic.org/files/2012/04/
PHC-04-23a-Mexican-Migration.pdf, p. 23.
---------------------------------------------------------------------------
  <bullet> Mexicans repatriated in 2010 were more likely to have been 
        apprehended at work or at home than Mexicans surveyed during 
        earlier periods: 17% in 2010 versus 3% in 2005. The proportion 
        of Mexicans surveyed who had been apprehended at the border 
        fell from 49% in 1995 to 33% in 2005 to 25% in 2010.\47\
---------------------------------------------------------------------------
    \47\ Ibid., p. 24.
---------------------------------------------------------------------------
  <bullet> Mexicans repatriated in 2010 were less likely than those 
        repatriated in previous years to report that they intended to 
        return to the United States. Among those who migrated illegally 
        to look for work (83% of those in the survey), 60% reported 
        that they intended to return to the United States immediately, 
        and 80% reported that they intended to return eventually, down 
        from 81% and 92%, respectively, in 2005. Among new unauthorized 
        migrants (those who had spent less than a week in the United 
        States before being repatriated to Mexico), 18% of those 
        repatriated in 2010 reported that they would not return to the 
        United States compared to 6% in 2005.\48\
---------------------------------------------------------------------------
    \48\ Ibid., pp. 24-25.
---------------------------------------------------------------------------
Conclusions: The Effectiveness of U.S. Border Control and Migration 
        Enforcement
    Taken together, the data described above suggest that illegal 
inflows have fallen substantially during the last 5 years, and that 
border control and migration enforcement policies likely have 
contributed to this downturn. Yet available data do not allow for a 
precise description of the importance of migration enforcement relative 
to other factors that also influence illegal migration, or for concrete 
conclusions about the effectiveness of border control and migration 
enforcement.
    A fundamental obstacle to evaluating the effectiveness of migration 
enforcement measures is that individual and aggregate migration 
decisions are highly complex, reflecting not only the risk of 
apprehension and the costs of migration, but also--at least as 
importantly--a range of socio-economic ``push'' and ``pull'' factors at 
both ends of the migration chain, as well as social and family networks 
that facilitate migration.\49\ Thus, even if we know with certainty 
that illegal inflows have fallen in a given period, as appears to be 
the case since 2007, it is not possible to describe how much of the 
downturn is a result of enhanced enforcement, and how much is a 
function of these other factors. It is especially difficult to measure 
``remote deterrence'': the decision by potential migrants, who may be 
thousands of miles from the border, to choose not to embark on a trip 
to the United States--though such deterrence may well reflect U.S. 
enforcement efforts.
---------------------------------------------------------------------------
    \49\ See for example, Douglas S. Massey, Joaquin Arango, and Graeme 
Hugo, et al., Worlds In Motion: Understanding International Migration 
at the End of the Millenium, 2nd ed. (New York: Oxford University 
Press, 2005).
---------------------------------------------------------------------------
    Assigning causality is particularly difficult in the case of the 
post-2007 downturn because many of the most significant new enforcement 
efforts--including a sizeable share of new border enforcement 
personnel, most border fencing, new enforcement practices at the 
border, and many of the new migration enforcement measures within the 
United States--have occurred in the context of the most severe 
recession since the 1930s. The economic downturn has been particularly 
intense in certain industries that have historically employed a large 
number of unauthorized migrants.
    Additional factors may have further contributed to reduced illegal 
migration from Mexico, historically the source of about 60% of 
unauthorized migrants in the United States. Abuses of migrants by 
smugglers and transnational criminal organizations and high levels of 
border-area violence appear to have discouraged some potential Mexican 
migrants.\50\ The Mexican economy has recovered from the 2007-08 
downturn more quickly than the U.S. economy, and expanding job 
opportunities in Mexico may have discouraged some would-be 
migrants.\51\ Perhaps most importantly, long-term demographic trends 
mean that relatively few Mexican workers have entered the labor market 
in recent years, as Mexico's fertility rate has fallen from an average 
of 7.2 children per woman in 1960 to about 2.2 today.\52\
---------------------------------------------------------------------------
    \50\ See David Scott Fitzgerald, Rafael Alarcon, and Leah Muse-
Orlinoff, Recession Without Borders: Mexican Migrants Confront the 
Economic Downturn (La Jolla, CA and Boulder, CO: Center for Comparative 
Immigration Studies (CCIS) and Lynne Reiner Publishers, 2011).
    \51\ According to Mexican data, Mexico's GDP grew by 5.5% in 2010 
and 3.9% in 2011; see Jeffrey Passel, D'Vera Cohn, and Ana Gonzalez-
Barrera, Net Migration from Mexico Falls to Zero--And Perhaps Less, Pew 
Hispanic Center, Washington, DC, 2012, http://www.pewhispanic.org/
files/2012/04/PHC-04-23a-Mexican-Migration.pdf, p. 31.
    \52\ Pew Hispanic Center, The Mexican-American Boom: Births 
Overtake Immigration, July 14, 2011, http://pewhispanic.org/files/
reports/144.pdf, p. 7.
---------------------------------------------------------------------------
                    THE COSTS OF BORDER ENFORCEMENT

    As described above, the prevention through deterrence approach to 
border security has been resource-intensive, relying on the deployment 
of personnel, infrastructure, and technology to U.S. borders. To 
evaluate the strategy and weigh it against alternative approaches, it 
may be useful to consider the costs of border enforcement, including 
direct costs, indirect costs and benefits, and opportunity costs.

Direct Costs
    The two largest components of the Border Patrol's prevention 
through deterrence approach, when measured in terms of direct spending, 
have been outlays for personnel and for border fencing and surveillance 
technology, depicted in Figure 7. As the figure indicates, USBP funding 
grew from $232 million in 1989, to $1.3 billion in fiscal year 2002 
(the last data available prior to the creation of DHS), to $3.6 billion 
in fiscal year 2012--a nominal increase of 1,450% and an increase of 
750% when accounting for inflation. Appropriations for fencing and 
technology increased from $25 million in fiscal year 1996 to $298 
million in fiscal year 2006, an eleven-fold increase (eight-fold when 
adjusting for inflation), and then jumped to $1.5 billion in fiscal 
year 2007 before falling to $573 billion in fiscal year 2011 and $400 
billion in fiscal year 2012. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Indirect Costs and Benefits \53\
---------------------------------------------------------------------------
    \53\ For a fuller discussion of indirect costs and benefits, see 
CRS, Immigration Enforcement Between Ports of Entry.
---------------------------------------------------------------------------
    Border enforcement also may entail a number of indirect, and 
sometimes unintended, costs and benefits that also may be useful to 
consider as part of a comprehensive analysis of the issue:
  <bullet> Crime and migrant mortality.--The concentration of 
        enforcement resources around the border may exacerbate crime 
        and migrant mortality by making migrants more reliant on 
        smugglers and more likely to cross in dangerous locations. On 
        the other hand, if enforcement deters illegal crossers, such 
        prevention should reduce crime and mortality; and the 
        concentration of law enforcement personnel near the border may 
        further enhance public safety and migrant protection. The 
        empirical record suggests that crime rates have fallen in 
        certain Southwest Border cities faster than in other cities of 
        a similar size, but the impact of border enforcement on border 
        area crime and migrant mortality is unknown because available 
        data cannot separate the influence of border enforcement from 
        other factors. Available data about known migrant deaths along 
        the Southwest Border suggest that mortality rates have risen 
        and that border crossings have become more hazardous since the 
        ``prevention through deterrence'' policy went into effect in 
        the 1990s, though once again the precise impact of enforcement 
        on migrant deaths is unknown.
  <bullet> Migrant flows.--Social science research suggests that border 
        enforcement has had the unintended consequence of encouraging 
        unauthorized migrants to settle permanently in the United 
        States rather than working temporarily and then returning home, 
        as was more common prior to the mid-1980s.\54\ A second 
        unintended consequence of enhanced border enforcement between 
        ports of entry has been an apparent increase in illegal entries 
        through ports of entry and other means.\55\ There is also 
        anecdotal evidence that unauthorized aliens have turned to 
        maritime routes and border tunnels as alternative strategies to 
        cross the U.S.-Mexican border.\56\
---------------------------------------------------------------------------
    \54\ For example, see Wayne Cornelius, ``Evaluating Recent US 
Immigration Control Policy: What Mexican Migrants Can Tell Us,'' in 
Crossing and Controlling Borders: Immigration Policies and Their Impact 
on Migrants' Journeys, ed. Mechthild Baumann, Astrid Lorenz, and 
Kerstin Rosenhow (Farmington, MI: Budrich Unipress Ltd, 2011).
    \55\ See for example, Jonathan Hicken, Mollie Cohen, and Jorge 
Narvaez, ``Double Jeopardy: How U.S. Enforcement Policies Shape 
Tunkaseno Migration,'' in Mexican Migration and the U.S. Economic 
Crisis, ed. Wayne A. Cornelius, Davide FitzGerald, Pedor Lewin Fischer, 
and Leah Muse-Orlinoff (La Jolla, CA: University of California, San 
Diego Center for Comparative Immigration Studies, 2010), p. 66.
    \56\ See for example, Richard Marosi, ``Border Battle Over Illegal 
Immigration Shifts to Beaches,'' Los Angeles Times, March 24, 2011; 
Associated Press, ``Major Drug Tunnel Found in San Diego,'' Washington 
Post, November 30, 2011.
---------------------------------------------------------------------------
  <bullet> Effects on border communities and environmental impact.--As 
        with border crime and violence, the effects of enforcement on 
        border communities and the environment are complex because they 
        reflect changes in migrant behavior and the secondary effects 
        of enforcement per se. Border enforcement benefits local 
        communities because unauthorized migration imposes costs on 
        local services, strains public safety resources, and undermines 
        the rule of law. Yet enforcement also may disrupt local 
        economic activity by discouraging travel and commerce; and some 
        residents of border communities see enhanced border enforcement 
        as leading to racial profiling, wrongful detentions, and other 
        adverse consequences.\57\ Similarly, border enforcement may 
        benefit the environment because some illegal border crossers 
        transit through sensitive environmental areas, cutting 
        vegetation for shelter and fire, causing wildfires, increasing 
        erosion through repeated use of trails, and discarding 
        trash.\58\ At the same time, the construction of fencing, 
        roads, and other tactical infrastructure may damage sensitive 
        border-area ecosystems; and some environmental groups have 
        opposed border infrastructure projects.\59\
---------------------------------------------------------------------------
    \57\ See for example, NY School of Law, NY Civil Liberties Union, 
and Families for Freedom, Justice Derailed: What Raids On New York's 
Trains And Buses Reveal About Border Patrol's Interior Enforcement 
Practices, New York: November, 2011, http://www.nyclu.org/files/
publications/NYCLU_justicederailedweb.pdf; Lornet Turnbull and Roberto 
Daza, ``Climate of Fear Grips Forks Illegal Immigrants,'' Seattle 
Times, June 26, 2011.
    \58\ Department of Homeland Security, Environmental Impact 
Statement for the Completion of the 14-mile Border Infrastructure 
System, San Diego, California (July 2003), pp. 1-11.
    \59\ See e.g., Defenders of Wildlife, ``Wildlife and Border 
Policy,'' http://www.defenders.org/programs_and_policy/
habitat_conservation/federal_lands/border_policy/. Also see CRS Report 
R42346, Federal Land Ownership: Overview and Data, by Ross W. Gorte et 
al.
---------------------------------------------------------------------------
  <bullet> U.S. foreign relations.--The United States has strong border 
        partnerships with Mexico and Canada, but issues related to 
        migration control and border enforcement have been occasional 
        sources of tension, particular in the U.S.-Mexican case, and 
        may lead to missed opportunities for deeper cooperation at the 
        border and beyond.\60\
---------------------------------------------------------------------------
    \60\ On U.S.-Canadian border issues, see CRS Report 96-397, Canada-
U.S. Relations, coordinated by Carl Ek and Ian F. Fergusson; on U.S.-
Mexican border issues, see Marc R. Rosenblum, Obstacles and 
Opportunities for Regional Cooperation: The US-Mexico Case, Migration 
Policy Institute, April 2011, http://www.migrationpolicy.org/pubs/
USMexico-cooperation.pdf.
---------------------------------------------------------------------------
Opportunity Costs
    In a world of scarce resources, funding for USBP may be seen as 
competing with funding for other DHS components like CBP's Office of 
Field Operations (OFO), which is responsible for inspections and 
enforcement at POEs, and ICE, which is responsible for DHS 
investigations and most enforcement activities related to transnational 
crime within the United States, among other competing priorities.
    For example, Figure 8 focuses on the allocation of resources to 
enforcement between POEs vs. inspections and enforcement at POEs since 
the creation of the Department of Homeland Security. The bars indicate 
the number of full-time equivalent (FTE) positions funded for these two 
activities, and the lines represent total Congressional appropriations 
to each (including funding to USBP and for fencing and tactical 
infrastructure in the case of enforcement between the ports). As the 
figure illustrates, resources between the ports (the green bars and 
lines in the figure) have grown much faster than OFO resources (the 
blue lines and bars in the figure). Funding for enforcement between the 
ports more than doubled in the 2004-2012 period, from $1.9 to $4.0 
billion (108% growth), while OFO funding has increased by less than 
one-third, from $2.2 to $2.9 billion (32%). Similarly, FTEs for 
enforcement between POEs increased from 11,745 to 23,306 (98% growth), 
while OFO FTEs increased from 17,467 to 21,893 FTEs (25% growth). 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  2012 NATIONAL BORDER PATROL STRATEGY

    Based on preliminary information USBP has made available about the 
2012 Border Patrol Strategic Plan,\61\ the plan will emphasize a risk-
based approach to border security that emphasizes the use of 
information and intelligence to identify threats, and the integration 
and rapid deployment of USBP resources to target enforcement to the 
points of greatest vulnerability and where the risk of incursion is 
highest. Whereas the 1994 plan focused primarily on moving adequate 
resources into the border region, the 2004 plan began to focus 
attention on how such resources were allocated, and the 2012 plan 
reportedly will continue the shift in this direction to focus 
enforcement on high-priority targets. The plan reportedly will continue 
to strike a balance between USBP's traditional emphasis on preventing 
illegal migration and the agency's post-9/11 priority missions of 
preventing the entry of terrorists and terrorist weapons, along with 
the recent U.S. focus on combating transnational criminal 
organizations.
---------------------------------------------------------------------------
    \61\ Information about the 2012 National Strategy is based on USBP 
Office of Legislative Affairs staff briefing for the Senate Committee 
on Homeland Security and Government Affairs, February 13, 2012.
---------------------------------------------------------------------------
  concluding comments: threats, vulnerabilities, and policy responses
    The 2012 USBP Strategic Plan reportedly describes the goal of 
border security in terms of risk management: A process that involves 
``identifying, analyzing, assessing, and communicating risk and 
accepting, avoiding, transferring or controlling it to an acceptable 
level considering associated costs and benefits of any actions 
taken.''\62\ DHS defines risk as a function of specific threats, 
America's vulnerability to such threats, and their potential 
consequences.\63\
---------------------------------------------------------------------------
    \62\ DHS Risk Steering Committee, DHS Risk Lexicon, September 2010, 
http://www.dhs.gov/xlibrary/assets/dhs-risk-lexicon-2010.pdf, p. 30.
    \63\ Ibid., pp. 27-38.
---------------------------------------------------------------------------
    From a border security perspective, four types of transnational 
threats may be especially important to consider: Weapons of mass 
destruction (WMD), drugs and other contraband, potential terrorists and 
other ``bad actors,'' and ``regular'' unauthorized migrants (illegal 
migration). These threats have substantially different overall risk 
profiles. By most estimates, the entry of WMD and ``bad actors'' are 
high-consequence but low-probability risks. Conversely, compared to the 
threats from WMD and ``bad actors,'' illegal migration is a lower-
consequence, higher-probability event--though some of the consequences 
of unauthorized migration do not lend themselves to precise 
measurement, and people may disagree about how to evaluate them. The 
entry of drugs and other contraband fall in between these two extremes.
    Important differences also exist across different border zones in 
terms of America's vulnerability to transnational threats. For example, 
while the Southwest Border between POEs historically has been a major 
point of vulnerability with respect to illegal migration and marijuana 
smuggling, most experts do not consider the Southwest Border between 
POEs to be the most important point of vulnerability to WMDs or other 
types of drugs and contraband, both of which are more likely to be 
smuggled into the United States through a port.\64\ Similarly, given 
existing enforcement infrastructure, the Southwest Border may not be 
the greatest point of vulnerability with respect to individual ``bad 
actors,'' who may be more likely to attempt illegal entry through POEs 
or to enter the United States from Canada or at a Coastal Border.\65\
---------------------------------------------------------------------------
    \64\ See for example, U.S. Department of Justice, National Drug 
Intelligence Center, National Drug Threat Assessment: 2011, Washington, 
DC: August, 2011.
    \65\ See for example, testimony of K. Jack Riley before the House 
Homeland Security Committee, Subcommittee on Economic Security, 
Infrastructure Protection, and Cybersecurity, Border Security and the 
Terrorist Threat, 109th Cong., 2nd sess., August 8, 2006.
---------------------------------------------------------------------------
    A third set of considerations focuses on expected policy benefits: 
The potential for a given policy to reduce risk. Most border security 
policies per se are designed to reduce vulnerability to a threat or 
group of threats. Policies within the United States also may be 
designed to lower the consequences and/or likelihood that a potential 
event will occur, for example, by hardening infrastructure, reducing 
demand for illegal employment, or disrupting smugglers' financial 
networks.
    For these reasons, the USBP 2012 National Strategy appears to raise 
important and appropriate questions about future U.S. border security 
investments and policies. What are the most serious security threats 
confronted by the United States, and where are its greatest points of 
vulnerability? What additional investments and policy responses would 
produce the greatest reduction in risks to the United States? While 
some of the answers undoubtedly will direct attention to traditional 
investments in Southwest Border personnel, infrastructure, and 
technology, USBP's focus on risk management also may direct additional 
attention to how we manage flows through ports of entry and to 
enforcement policies within the United States.

    Mrs. Miller. Thank you very much, Doctor.
    I want to thank all of our witnesses for being here today, 
particularly you, Chief, who I am noticing is really the only 
person in uniform. We are all here telling you of our hopefully 
constructively critical way of looking at all of this in your 
new strategic plan. I appreciated you articulating again the 
long and distinguished history of the CBP, certainly.
    I also was taking some notes as you were talking, and I 
have been looking at your new strategic plan here a bit, and as 
you mentioned information, integration, and rapid response and 
also about the amount, I think Ms. Gambler mentioned, over $4 
billion that the Congress and American taxpayers have invested 
in technology and these kinds of things. You know, with all the 
technology that we do need to utilize, obviously, for all of 
our borders, sometimes there is really no second for human 
intel, really. As I mentioned at the outset, with foiling this 
bomb plot, I am certain that much of that was human intel and 
the work of our intelligence community, counterintelligence, 
counterterrorism, et cetera. The same thing applies, I think, 
for border security in many, many ways.
    It seems to me that a good way to get that kind of 
intelligence--and it is utilized, or, certainly, as you mention 
it in the strategic plan--is when you talk about increasing 
community engagement and other kinds of things with all the 
various stakeholders at all of our borders. We have often said 
that they are really a force multiplier. I think you can 
probably get a lot more intel from the local law enforcement 
that is, sort of, out in the neighborhoods a bit and sharing 
that information with you, whether that is at the Southern 
Border, the Northern Border, our Coastal Borders, what have 
you. One thing about the street, the street talks.
    Chief Fisher. Yes, ma'am.
    Mrs. Miller. The street talks. Your officers are trained to 
understand and start to develop a threat assessment based on 
some of that intel.
    Also--and I am not sure if you have that in here, but I was 
recently--and, of course, I am from the Detroit sector, and was 
recently over on the Canadian side of the Blue Water Bridge 
looking at what our Canadian counterparts were doing, and I had 
one of your officers with us. What did they have there more 
than anything? Dogs. The dogs were sniffing--I mean, with all 
this technology, the dogs were sniffing everything that went 
through, whether it is people or drugs. Their ability for 
apprehensions was not something high-tech. So, particularly 
when you have all these military dogs coming back now that have 
had the ability to sniff with IEDs and everything else--and I 
know we have talked about how that can be a layer of your 
strategic approach to border security.
    But I mention that because when we talk about defense-in-
depth, really looking at ports of entry, making utilization of 
interior checkpoints, I know along the Northern Border and I 
think the Southern as well, a big part of what you were doing 
was, like, going into the bus terminals, talking to folks at 
transportation hubs, et cetera, sometimes just a random 
approach that you start picking up intel that is incredibly 
important.
    I guess I would first ask: Are you still doing that? I am 
not sure if you still continue to do that. What is your thought 
about utilizing the community engagement, et cetera, for 
intelligence gathering, which I think is certainly as critical 
a component as even UAVs or anything else?
    Chief Fisher. Yes, Chairwoman. Well, to your first point, 
we are still doing checkpoints, although we are moving away 
from the term ``defense-in-depth'' because defense-in-depth in 
the previous strategy really implied a first and fundamental 
strategic imperative which was terrain denial. So in that 
context, it made sense to have some defense-in-depth-like 
checkpoint operations, whether they were tactical or permanent. 
So we will continue, and that is what we have asked the field 
chiefs to take a look at.
    Just because it is not necessarily written in those few 
pages of the strategy--remember, the strategy is a broad 
framework of how we want the organization to start thinking. So 
there are going to be things that even since 2004 that we will 
continue to do. If it makes sense to continue on that path 
forward, we will do that. I think some of our terminology in 
what we are trying to accomplish is also going to change.
    With respect to the community engagement, it is going to be 
critical for our leaders to understand the change from 
community relations toward community engagement. As you so 
artfully articulated, you know, we have 21,370 Border Patrol 
agents; we also have 21,370 intelligence collectors. We have to 
train the Border Patrol agents to recognize that every 
individual that they encounter is a potential source of 
information.
    When you say ``information,'' also, it is because we also 
don't want to discount open-source information. People that 
live in the border communities, quite frankly, have a lot of 
information that, unless we ask them, aren't going to be able 
to share that with us. I think that was some of the lessons 
learned in 2006 and into 2007, that the Department of Defense 
in shifting their thinking in terms of their strategy and how 
they were going to actually confront, you know, the threats 
that they were seeing overseas.
    It is the same broad approach that we are taking in 
recognizing that we have to make sure that we don't just ask 
somebody, ``Hey, give us a call if you see something 
suspicious.'' Actually take the time and explain to them in 
their particular area what is suspicious and why it is 
important that they respond and, to the extent that they are 
able to, to provide that level of information for us.
    So it is kind of a strategic shift, as well, in terms of 
what our expectations are of the communities in which we serve.
    Mrs. Miller. I appreciate you saying that. Because, again, 
I think, just an example in the northern sector--and I think 
this is a pilot program; I am not sure if you have plans to 
replicate it along a northern tier or the southern tier, as 
well--is the Operational Integration Center in Michigan, where 
you literally have all of the various shareholders.
    You mentioned the DOD, but, I mean, it wasn't--really, the 
9/11 Commission recommendation that I always talk about because 
I think it was one of the most important ones, we need to go 
from the need to know to the need to share, the need to share 
information amongst the various agencies or all of the 
stakeholders. In the case of the OIC, where you have CBP, NBP, 
and the Coast Guard, the Royal Mounted, we have the State 
police, the counties, as I say, all their marine patrols, et 
cetera, the local cities and village police departments and 
first responders, all of this information being analyzed by 
state-of-the-art data, so you are using the computers, really, 
to analyze the human intel that can assess the threat and then 
have a product that can be given to the men and women that are 
out on the front lines, whether that is the northern tier, 
southern tier, or what have you. I think that is something that 
the Department needs to think about replicating. It has had 
great success in that particular area.
    I know my time is running over here, but I do have just a--
what is really new? What is really new in this strategic plan? 
I am looking at it, and everything in here--I mean, I agree 
with everything that is here, but there wasn't really something 
that grabbed me as being really new. Is there anything really 
new in here that you would highlight as a marquee component of 
this new plan?
    Chief Fisher. I will give you one example--actually, I will 
give you two quick examples. One is the change detection 
capability. That was something that----
    Mrs. Miller. The what?
    Chief Fisher. Change detection capability.
    The other one talks about optimizing capability.
    We weren't able to do that 8 years ago because, No. 1, we 
didn't have the level of resources and, No. 2, we didn't have 
the technology that allowed us to look into areas like the 
Northern Border or some of the very remote areas along the 
Southern Border because we weren't able to get into those 
locations. Road systems did not exist; the terrain did not lend 
itself for patrols in that area. With the UAS systems that CBP 
has had over the last few years, it gives us the ability now to 
use things like synthetic aperture radar, to go out and fly 
sorties along the border to confirm or deny any changes in that 
threat environment or any entries, which over the course of, 
say, for instance, 2 or 3 weeks we hadn't seen anything. So 
that allows us to use technology to be able to understand where 
those threats are going to be evolving.
    So those phrases, although they are somewhat new, that 
takes a whole new meaning when you look at the implementation 
and what it means along our borders.
    Mrs. Miller. Just as a follow-on, do either of the two 
witnesses have any comment in regards to that? What is really 
new in this strategic plan, as you have reviewed it? Do you 
agree with what the chief is pointing out, or do you have 
something else that caught your eye?
    Ms. Gambler. I think from our perspective some of the same 
elements are in the 2012 Strategy as were in the 2004 Strategy. 
I think there is a different level of emphasis on some of the 
capabilities and a different way of thinking through how those 
might be implemented going forward. So I think it is a 
difference in emphasis, to some extent.
    Mrs. Miller. Doctor.
    Mr. Rosenblum. I would agree that there is a clear 
evolution. When you look at the prevention through deterrence 
as it was described in the 1990s through the 2004 plan, there 
is sort of a clear trend of the Border Patrol describing having 
adequate resources now put in place at the border and thinking 
more strategically about how to deploy them and how to use them 
flexibly.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes the Ranking Member, Mr. 
Cuellar.
    Mr. Cuellar. Thank you so much, Madam Chairwoman.
    First of all, Doctor, let me ask you--or let me just say, 
first of all, thank you for the report that you gave us.
    Also, Members, if you haven't seen the Congressional 
Research report of the--I think it is dated January 6 of this 
year, called ``Border Security: Immigration Enforcement Between 
Ports of Entry,'' I would ask you--I think one of the charts 
that you had up there on how much a coyote charges and how the 
price has gone up. I appreciate the good work that you have 
done.
    Let me ask you, since I authored--passed the law on 
modernizing GPRA, let me ask you about some of the GPRA 
changes. Do you know if Border Patrol--maybe it is more under 
the umbrella--have they appointed a performance improvement 
officer already? That is supposed to be under the law. If you 
know.
    Mr. Rosenblum. I am not certain. I don't know.
    Mr. Cuellar. Okay. Do you know if they started working on, 
according to their law, I think, a priority goal? Have they set 
up their priority goals, or is that more under the Homeland 
Security? There are certain things they are supposed to be 
doing under the law; I am just asking if they have done that 
already.
    Mr. Rosenblum. I am not certain about that either. I know 
that they owe some reports to you guys, and I haven't seen all 
of those reports yet.
    Mr. Cuellar. Okay.
    Chief Fisher, have you all done that? Do you know who your 
performance improvement officer is, or is that more under 
Homeland?
    Chief Fisher. It is a little bit of both, Congressman. As a 
matter of fact, within our Strategic Policy and Plans division 
within the headquarters, we have Border Patrol agents that are 
assigned and work closely----
    Mr. Cuellar. No--and I am sorry, I don't mean to interrupt. 
I apologize, I really apologize. But under the law, you are 
supposed to have an executive, high-ranking officer not in the 
field. It is supposed to be under the law, Chief. I don't know 
if it should be more under the umbrella that it applies. But do 
you know who your chief improvement officer is?
    Chief Fisher. I don't know whether it is within the Border 
Patrol. More likely, it may be within Customs and Border 
Protection or at the Department level.
    Mr. Cuellar. Okay.
    Chief Fisher. But we do have Border Patrol agents that are 
assigned to run those reports and work on a continual basis to 
make sure that whatever we are reporting against the GPRA 
requirements each year, they are doing that both in concert 
with CBP and the Department.
    Mr. Cuellar. Okay. Are you familiar with the Interagency 
Performance Improvement Council?
    Chief Fisher. I am not, sir.
    Mr. Cuellar. Okay. I would ask your gentlemen there 
sitting, and ladies, behind you if they would look at House 
Resolution 2142. It became law I guess over a year ago. 
Agencies are supposed to be following certain things. It has to 
do with the performance measures and what the priority goals 
are. I would ask you just respectfully if your folks behind you 
could just take notes and look at that law and report back to 
us on that.
    The reason I say that is because I know there are some 
changes--and I appreciate all the work. But, for example, there 
have been changes. I think now we are moving away from 
operational control. As of September 30, if you look at that 
definition, 88 percent of our borders were classified as 
managed. There is a definition for managed control, as to 
operational controls. So, basically, we had 12 percent of all 
the borders--Northern, Southern borders, Coastal areas--that 
were under operational control. The rest were under managed 
control.
    Is that correct, Dr. Rosenblum?
    Mr. Rosenblum. Yes, sir.
    Mr. Cuellar. Okay. Again, there are definitions, and you go 
through what managed and operational control mean. Operational 
control means a tighter reign than managed control.
    I think out of Southwest Border, 2,000 miles, 873 were 
under operational control. On the Northern Border, I think, out 
of all of the miles that you have, 69 miles were under 
operational control. Then under the whole Coastal, east and 
west, only 165 miles were under operational control. Is that 
correct?
    Mr. Rosenblum. Yes, sir.
    Mr. Cuellar. They are moving now, Border Patrol is now 
moving into another type of performance measures. According to 
your report, since headquarters has not come up with new 
performance measures or new goals on that, according to your 
report, different officers at different ports are using 
different intra-measures for GPRA reporting measures. Is that 
correct?
    Mr. Rosenblum. That is what I understand, that there are a 
number of additional measures that Border Patrol does track, 
including, you know, there are estimates of--they track 
apprehensions, and we know something about that. The measures 
that you were citing, the operational control and effective 
control, refer to the time within which, after somebody crosses 
the border, Border Patrol is able to apprehend them, as we were 
discussing earlier.
    But at the sector and station level, I understand--and 
Chief Fisher could tell you much more about this--that the 
stations also track their estimates of how many people get away 
and successfully enter the United States, how many people are 
turned back. Those are some of the kinds of things that could 
also be incorporated into our analysis of the apprehension rate 
and of illegal flows.
    Mr. Cuellar. As of April 2012, Border Patrol headquarters 
officials were working to develop border security goals and 
measures, but they have not given you a target time frame as to 
when they will be implementing that.
    Because here we are talking about a strategy, correct? So 
the first part is the strategy, but then we got to go into the 
goals and then we got to go into the measure, you know: How do 
you measure results from failure?
    So, Chief, do you have an idea of when we will get to--and, 
again, thank you. I appreciate that the strategic is the first 
step, but we got to go into the goals and then the measures. 
Any idea what sort of time frame we will have for that?
    Chief Fisher. Yes, sir. We are looking at the beginning of 
the next calendar year.
    Although I should also mention, it is not like we are just 
erasing everything that we have done and trying to come up with 
new things. What we are trying to do is dovetail onto some of 
those things that we have previously used and inform beyond 
some of the data sets.
    I think the one that comes to mind is apprehensions. I 
mean, we have talked even within this committee about, you 
know, apprehensions, in and of themselves, really don't tell us 
anything in terms of the extent to which we are being 
successful and/or levels of border security. What is 
interesting, what we are doing now is taking a look at those 
apprehensions only as a start point to really delve down, to 
really understand the rate of recidivism, the rate of re-
apprehension in different locations, and doing the comparatives 
to make sure that we are having a better sense of what is 
actually happening, not just independently trying to evaluate 
on whether the apprehensions went up or whether they went down.
    So it is a whole host of re-thinking. In some cases, we are 
looking at new measures, to include the effectiveness ratio.
    Mr. Cuellar. Yes. My time is over. If I can just finish 
with this thought. I would ask you again, Chief, to look at the 
new GPRA. I would ask you all to look at the requirements that 
are in law already.
    I would ask you also to look at page 21, Appendix 2 of the 
report. When it talks about performance measures--and I will 
just highlight them. ``Performance measures should cover core 
program activities that Border Patrol is expected to perform. 
Measures should be balanced to cover CBP and DHS priorities. 
Measures should link and align measures with other components 
at successful levels of the organizations. Measures should 
reflect Government-wide priorities such as quality, timeliness, 
and cost of service, also what it costs to provide that. 
Measures should have a numerical goal to be recently free from 
significant bias and manipulation and be reliable, producing 
the same results from the same conditions.''
    I ask you to do that, because, again, I appreciate the 
strategic plan, but we still got a lot more work to go--the 
goals, the priority goals, and the performance measures so we 
know exactly what we are measuring. Is it results or failure 
from work there?
    Again, I appreciate all of the good men and women that work 
for you. It is good work. I know it is very hard. GPRA is a 
very important part, so we can look at efficiency, 
effectiveness, accountability to the taxpayers, especially 
since we are putting so much money into Homeland Security.
    So, again, we look forward to working with you, Chief. I 
would ask you to work with Dr. Rosenblum and some of the other 
folks here on some of the ideas here, and especially the 
requirements under GPRA.
    Chief Fisher. Yes, Congressman. Thank you.
    Mr. Cuellar. Thank you so much. Appreciate it.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the Ranking Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Chief Fisher, one of the constants that this committee runs 
into is departments or agencies will come up with a new plan, a 
new strategy, but when you talk about who was involved in 
crafting the new plan or strategy, it ends up being just a 
snapshot of the agency rather than the agency as a whole.
    So can you tell us, in developing this new strategy, or the 
third strategy that I have been a part of, did we involve other 
counterparts of CBP in putting it together, like the Air and 
Marine and other operations? Tell us a little bit about that.
    Chief Fisher. Yes, Congressman. That is actually a really 
good question.
    It has been in process, the design and development of the 
strategic plan, for about 18 months. During that process, not 
only within CBP and those other operational offices that you 
mentioned, Office of Field Operations and Office of Air and 
Marine, had opportunities to comment on multiple drafts as we 
were developing the strategy throughout. We also had input 
certainly from the Department. Even before that, as we were 
working with our field commanders, and we had them reach out to 
the employees to understand and help us develop the framework 
as well. We wanted to make sure that we harnessed the ideas 
from the field leadership.
    Then we took the opportunity and had about a dozen peer 
review, folks that were actually outside of the uniform, some 
retired Border Patrol agents, in some cases who were just 
outside of law enforcement, folks that we had, within the 
staff, had worked with throughout our last few years. Certainly 
respected their opinions, whether it was in the academic 
environment or whether it was in some outside consulting. We 
had them just take a look at it and give us their cold hits and 
reactions to it, as well.
    Certainly it was not done in a vacuum, and we really needed 
broad perspective in order to put this together. I would also 
add that part of the implementation plan is taking on that same 
approach, sir.
    Mr. Thompson. So, in this process, did you have any State 
or local involvement in the preparation of this plan, or was it 
strictly within CBP?
    Chief Fisher. That I am not really sure, Congressman. If it 
was done at the local level, that is probably where they would 
have provided some of the drafts and feedback, whether it was 
to the sheriffs for their input or the police departments. It 
was not at my direction for them to do so because it was a 
working draft and it really was the broad strategy.
    I will tell you when we actually design the implementation 
plan, clearly the State and locals are going to have to sit 
down and understand what it means to implement this strategy 
within their operational environment. So that certainly will be 
done with a broader law enforcement eye, as well.
    Mr. Thompson. Ms. Gambler, maybe we are a little premature, 
but are we able to quantify the new strategy that is being put 
forth at this point, or would that come a little later? We 
talked about operational control, and there were some things we 
could measure. Have we arrived at that point yet, or are we 
still in the infancy of how we put that together?
    Ms. Gambler. At this point, the Border Patrol has not 
released performance goals and measures for assessing how 
effective it will be at implementing its new strategic plan. 
That is something that the Border Patrol will be focusing on 
going forward and has efforts under way right now to develop 
some new or additional measures.
    I think you are raising an important point, which is that, 
in the interim, the Border Patrol is using the number of 
apprehensions on the Southwest Border as its primary 
performance measure, which is being reported out in the 
Department's annual performance report. As we have discussed, 
that kind of measure has some useful information, in that it 
provides insights into the activity levels of the Border 
Patrol, how many apprehensions they are making.
    But what is really important and really key going forward 
is for the Border Patrol and the Department to move toward 
outcome-oriented measures that would allow the Department, the 
Congress, and the public to really get a sense of how effective 
the Border Patrol's efforts are.
    Mr. Thompson. So, chief, is that where you are headed?
    Chief Fisher. Yes, sir, it is.
    Mr. Thompson. Okay. Good.
    Dr. Rosenblum, you have had an opportunity to look at each 
one of the Department's efforts. Do you have some comments on 
where we are at this point with this one?
    Mr. Rosenblum. Well, yes. Thank you, Congressman.
    I think just to echo a couple of points that were just made 
and to respond to both of your questions, in terms of these 
sort of outcome measures, I would just add that even as we 
await the new Border Conditions Index, there are important data 
sources that exist that we should be looking at, for example, 
with the data that DHS already tracks through the IDENT 
database.
    In addition at looking at apprehensions, one of the things 
that the report that Mr. Cuellar mentioned looks at is unique 
apprehensions, and that allows us to look at recidivism rate 
and reapprehension rate, which is something that Border Patrol 
is looking at. Those offer a lot of insight beyond simply 
apprehensions and allow us, you know, to say quite a bit more 
about what we know about effectiveness and about illegal flows.
    The CBP Office of Field Operations also does some tracking. 
They do, sort of, a sample of people who are admitted and 
wouldn't normally receive secondary inspection, they subject a 
sample of them to secondary inspection. They can do an analysis 
that way of how many people appear to be getting through and to 
make an estimate of illegal migration through the ports.
    So there are some important data sources out there that 
aren't, sort of, systematically part of our conversation that 
probably could be and should be.
    So I think that, you know, certainly, when you compare over 
time throughout DHS, they are collecting a lot more data and 
putting us in a position to say a lot more than historically we 
have been able to say about what is happening in different 
sectors and at different border zones and through the ports. 
So, you know, I am optimistic that they will continue to do a 
better job of tracking that kind of information.
    Mr. Thompson. Thank you.
    I yield back, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    I want to piggyback on something you said earlier, the need 
to share. Dr. Rosenblum, you mentioned the IDENT and the 
biometric ID system. How integrated is that with other 
agencies?
    Because we have heard some testimony about visa overstays, 
and I have raised some questions about whether these agencies 
are actually communicating about illegal entries or visa 
overstays or people that the CBP sees there is a trend. So I am 
concerned. The 
9/11 Commission report identified that agencies weren't 
talking. This is very, very important to me.
    How integrated do you think that is?
    Mr. Rosenblum. I mean, the agency people could give you an 
answer to that question. My understanding is that, I mean, as 
you know, IDENT is currently part--it is not part of CBP or 
ICE; it is a separate office within DHS under the US-VISIT 
system. There is a proposal to move it now into CPB and ICE.
    My understanding is that, you know, all of the different 
DHS agencies have access to, you know, the IDENT database 
through US-VISIT and that there is extensive at least 
information sharing between IDENT and agencies like DOD and 
State. State, you know, taps into that in the visa issuance 
process. But I am not sure I could give you an informed answer 
about exactly how smooth that integration is.
    Mr. Duncan. Well, I don't want to dwell on it.
    Chief Fisher, I will just ask that your office contact my 
office with just some information on how we are sharing some of 
that, because it is sort of off on a tangent from what we are 
talking about today.
    The lady mentioned earlier, the GAO defines operational 
control--``The extent of operational control was defined as the 
number of border miles where Border Patrol had the ability to 
detect, respond to, and interdict cross-border illegal 
activity.'' That is a fairly-defined metric.
    Then she goes on in her testimony to say, ``However, the 
performance goals and measures that will be used to provide 
oversight and accountability for the new strategic plan have 
not yet been established.'' I think the gentleman from Laredo, 
Texas, was kind of going down that--how do we define the 
metrics?
    So, in our meeting, Chief Fisher, where you said you wanted 
to reframe operational control in this new strategy, can you 
elaborate really how you will do that?
    Chief Fisher. Yes, Congressman, I would be happy to.
    I think your question was one of the things that we were 
looking at 2 years ago. You know, certainly within the 2006 
Secure Fence Act operational control was defined. We had a 
tactical definition that the Border Patrol chiefs in the field 
were using to be able to report. GAO has their definition. 
Everybody had a different understanding of what operational 
control was.
    I will tell you, within the organization at the tactical 
level, where these were Border Patrol chiefs that would report 
every year all of those miles that we were, you know, chalking 
up over the last few years, is that tactical definitions--let's 
just take for ``controlled'' and ``managed.'' Each of the 
tactical definitions start with the phrase, ``A border is 
considered or a border zone will be considered controlled when 
resources are at such a level that,'' and then it kind of 
qualified basically what that border zone or the activity 
levels or some of those other things that we would use.
    Well, when you look at the definition, it was dependent, 
solely dependent, on resources. So if you didn't have the 
resources at either the controlled or managed level, because 
both of those definitions started with that phrase, the Border 
Patrol in the field was not going to increase effective 
control, which, by definition, was either at the controlled or 
managed level.
    So what we wanted to be able to do in reframing that was to 
have a better understanding about, it is not necessarily 
dependent on resources as much as it is about the intelligence, 
what are those threats in the border areas, and the 
vulnerabilities, which were not equal across the board.
    So instead of having the conversation about whether the 
border is secure or not, to suggest somehow that that is an 
either/or proposition, what my response would then be is, well, 
what section of the border are you talking about? We can talk 
about Zone 21 in Nogales, Arizona, and we can show you all the 
information and intelligence that we have in that border zone. 
We will show you what deployments we have, and we will then be 
able to show you on a 24-hour cycle how many people came in 
and, of that number, how many people did we apprehend? At the 
broader end, we can talk at the campaign level, for instance, 
our initiative in south Texas, for instance, the campaign. You 
want to have an assessment about, well, what is the border 
security status in south Texas?
    To me, it has been more about a methodology, not 
necessarily a metric. That is where, when I talk about 
reframing operational control, that to be consistent with the 
intent and the language within the 2006 Secure Fence Act, and 
then talk about what it means to prevent all entries, at what 
level and where do we start and where do we need to end for our 
end-state.
    Mr. Duncan. Well, I think the American people do want to 
have a conversation about what level of the border is secure 
and what we are doing. There has to be some measurable 
parameter that I can talk to my constituents about the Southern 
Border. You can hold your people accountable to a standard or 
to an achievement.
    I think there are three things that come to mind: You know, 
arrests made at the border for people trying to cross 
illegally; apprehensions in the homeland, interior, where we 
have identified illegals that have made it through your web and 
they are caught, apprehended by ICE maybe in another city. Then 
I think a standard that we don't talk about is what is the 
amount of drugs on the street. Because the illegal smuggling 
activity that comes into this country, you know, we don't hear 
that much. But we need to lessen the amount of drugs on the 
street, and I think that is a parameter that we can use to 
measure your performance by.
    So, with that, Madam Chairwoman, I yield back.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from Texas, Mr. 
McCaul.
    Mr. McCaul. Thank you, Madam Chairwoman. Let me thank you 
again for the field hearing in Laredo. It was very productive, 
with Mr. Cuellar.
    Chief, thank you for being here. Thanks for your service.
    I always learn something new every time I go down there. We 
note the task force, and they talked about in Nuevo Laredo the 
cartel activity going on there between the Sinaloa and the Zeta 
cartels--and this was last week--predicting that the violence 
was going to go up, that it was going to spike. Sure enough, 
last Friday, 23 individuals were killed in Nuevo Laredo, hung 
over bridges, decapitated--just a reminder that the border is 
not a safe place, that we do need to secure the border.
    I think the thing that keeps me up the night the most would 
be the idea of weapons-grade uranium being smuggled from a 
place like Iran to Venezuela and then between a port of entry. 
A dirty bomb in a major city--that, to me, is terrifying. Yet, 
it is not farfetched. I think that is something that is very 
foreseeable.
    So operational control of the border is important. Last I 
looked, it was 44 percent under operational control. You know, 
we have this new strategy now that scraps operational control, 
and now the GAO has come in to testify that this new strategy 
does not have performance measures.
    I guess I am a little confused. We are not talking about 
operational control anymore, we are taking that off the table, 
and now the new strategy has no performance measures at all. 
How can we possibly measure whether the border is secure or 
not?
    Chief.
    Chief Fisher. Yes, Congressman. We will have--we have 
measures right now. In other words, we are not, again, going to 
dismiss all of the measures or the metrics or the comparative 
statistics that we have done within the organization. Those 
continue. What we are trying to do is match those now with the 
strategic objectives that are outlined in this particular 
strategy.
    The scenario that you outlined is one of the primary 
factors in our rethinking about how we apply resources to the 
border. In one instance in 2004, quite frankly, it was brute 
force. We realized that we were getting more resources, both in 
terms of Border Patrol agents, we were getting fence built, we 
were getting technology. So the strategy really was get 
everything forward. We wanted to stop the flows that were 
coming in.
    The scenario that you depict is very akin to being able to 
identify a needle in the haystack, if you will. Now, in order 
to extract the needle--and I will use this in terms of a 
particular threat that you just mentioned--there are two 
different general approaches that you can do to get that 
needle. The first is having very specific intelligence, 
information regarding the intent and capability of the 
opposition, timing, to be able to surgically go into that 
haystack and remove it. Well, over the last 10 years or so, 
that really was not applicable in our border scenario. We were 
not getting that level of intelligence to be able to extract it 
that way. So the other approach that you can do to find the 
needle is to reduce the haystack. So if you look at some of the 
shifts in our approach between strategies, 2004 was built to be 
able to reduce the haystack.
    As we have done that, in terms of people coming across the 
border, in terms of not just the apprehensions but the 
individuals, those unique individuals that make up, our border 
environment in which we operate has changed. So what we try to 
do is now leverage and try to figure out, what is it going to 
take? Of this new strategic approach, what, then, are those 
metrics that are going to continue to carry over that we have 
traditionally been reporting? In addition, what are new metrics 
that we haven't been reporting that really talk to more about 
the risk along our borders?
    That is why when I said earlier it is more of a methodology 
than a particular metric, we want to be able to come back to 
the committee, either in an open or a closed hearing, to be 
able to tell you about the information and the intelligence 
that we are hearing either very tactically or in a broad sense, 
talk about the capabilities that CBP has, to be able to show 
you how we are assessing risk and how we are going to minimize 
that risk at any given----
    Mr. McCaul. I would very much like to get that briefing.
    The one thing we learned also is that human smuggling at 
the port of entry has gone way down. We saw 5,000 18-wheelers 
go through the port of entry, and they said that they rarely 
find humans now in the cargo. It is mostly drugs coming 
through. So that means they are coming through the ports of 
entry. While the apprehensions have gone way down, the 
disturbing statistic is that the OTM rate has gone way up, the 
``other than Mexicans.'' So between the port of entry is where 
the scenario I outlined is probably most likely to happen.
    I do think technology is going to be the solution to 
getting that, you know, secure. Can you tell me where you are 
with the latest advances in technology? What is your strategic 
plan to deliver technology to the border?
    Chief Fisher. Well, the strategic plan really talks about 
optimizing capability. The first thing before we say, hey, we 
need 10 more of these and 15 more of these, is to take a look 
about what capability, what technology has been deployed over 
the last few years. No. 1, are we utilizing it in the right 
combination?
    I will give you a quick example. If you take a look at 
Arizona, we have everything from unattended ground sensors that 
are implanted in the ground, we have mobile surveillance 
systems, we have integrated fixed towers, we have light- and 
medium-lift helicopters that are running forward-looking 
infrared, and we have UASes that are running payloads. That 
whole suite of capability is something that this organization 
over the last few years is just trying to figure out: How do 
you deploy that within the theater of operation? They are not 
deployed equally because they all have different capabilities.
    So we have to understand organizationally and within the 
leadership how we maximize those capabilities, and then how we 
shift and redeploy resources from areas that were once in areas 
of high threat in terms of activity levels and redeploy those 
to new areas where we have seen the displacement or new 
emerging threats along our border.
    Mr. McCaul. Well, thank you. You have an enormous 
challenge, and I thank you for your service.
    Chief Fisher. Thank you.
    Mr. McCaul. With that, I yield back.
    Mrs. Miller. I thank the gentlemen.
    I certainly want to thank all of the witnesses for being 
here today and your testimony.
    We are going to close the subcommittee here, but I also 
wanted to mention and follow up on something Mr. McCaul said 
about operational control. I think there is a lot of 
consternation on behalf of the subcommittee about moving away 
from the term ``operational control.'' Again, as I say, I think 
we are all totally open to using a new term or a new metric if 
we can understand exactly what all of that is.
    I had a bill that actually passed the subcommittee, the 
full committee, and I am very, very optimistic it is going to 
have floor action in front of the full House very shortly, 
actually. That is the Secure Border Act of 2011. Essentially 
what this requires is that the Secretary of Homeland Security 
submit a comprehensive strategy to Congress within 180 days to 
gain and maintain operational control of the border within 5 
years.
    We sort of anticipated, perhaps, the Department moving away 
from the strategy of utilizing the term ``operational 
control,'' so if you used any other standard--I see we have 
another Member, so we will indulge her in her questioning. But 
if we use any other term than ``operational control,'' the 
Secretary is required to vet that standard through a National 
laboratory that has prior expertise on border security, of 
which there are about a half a dozen in the Nation.
    Also, the Secretary would have to submit a measurement 
system to the committee within 180 days that analyzes the 
effectiveness of security at all of the land, air, and sea 
ports of entry, as well--as Mr. McCaul was mentioning about the 
ports of entry. Again, you would have to vet that through a 
National laboratory with expertise in border security to 
evaluate the port-of-entry measurement.
    So I am looking forward to floor action on that particular 
piece of legislation. I know many things pass the House and 
never see the light of day in the Senate; however, I think with 
this particular piece, we may have some success there as well.
    Mr. Cuellar. Before you go to----
    Mrs. Miller. Yes, the gentleman from Texas.
    Mr. Cuellar. I would ask, to follow up on what you said, 
because I think you are absolutely correct. Chief Fisher--and, 
Ms. Gambler, I am sorry. You are at GAO. I apologize for that. 
Thank you for the great work. I am a big supporter of GAO and 
all the work that you did on GPRA. Appreciate it.
    One of the things we did in Texas when we went through 
performance measures and all that, we actually worked--the 
agency would work with the members of the State legislature to 
work out definitions, performance measures, and goals. I guess 
Washington does things a little different, where you all go off 
and do your own. It is not only you; it is the other agencies, 
the Executive branch. It doesn't matter if it is Democrats or 
Republicans.
    But believe it or not, you have a lot of folks with 
experience here that could help you on some of those 
definitions, you know. We may not agree 100 percent, but any 
way we can bounce that off. Because, you know, the ideas that 
the Chairwoman had and some ideas that I have and some of the 
other Members here, we could work with you. I know Washington 
is done a little different, but on performance measures, on 
objectives, goals, all that, we could help you. So, any way we 
could help you, Chief Fisher, we would appreciate it, 
especially from the GAO, because I know when we worked on GPRA, 
you all were very, very, very helpful.
    I apologize, I was giving credit to Dr. Rosenblum on that, 
for your report, this report. Thank you for the work that you 
have done.
    Mrs. Miller. The Chairwoman recognizes for 5 minutes the 
gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the committee for holding 
this hearing, and let me thank all the witnesses. We are 
marking up in another committee, and I am very pleased to have 
the opportunity to raise some issues with you.
    First, Chief Fisher, I just want to ask just a 
straightforward question. Are you comfortable with the 2012 
Strategy that you have put forward?
    Chief Fisher. Yes, I am.
    Ms. Jackson Lee. What do you think is the most important 
element of that strategy?
    Chief Fisher. It is the focus of--there is a common theme 
within that strategy that I certainly see, is identifying, 
developing, and training future leaders of this organization.
    Ms. Jackson Lee. Do you see in that 2012 Strategy an 
undermining of the National security of the United States of 
America?
    Chief Fisher. I do not.
    Ms. Jackson Lee. Do you see in that 2012 Strategy an 
undermining of the securing of the Northern Border?
    Chief Fisher. I do not.
    Ms. Jackson Lee. Of the Southern Border?
    Chief Fisher. No, ma'am.
    Ms. Jackson Lee. Let me indicate that I have, I think, been 
somewhere affiliated with the Border Patrol, Customs and Border 
Protection for the entire time of my career in Congress, first 
on the Judiciary Committee and then subsequently as the 
Homeland Security Committee was designed and my original 
membership as this began to emerge. You came under that 
umbrella.
    I remember, after 2000, we worked very hard to secure night 
goggles, lap computers, vehicles, and other necessities that we 
thought were imperative for that intense work on the border of 
capturing those entering illegally. Do you think you have 
enough of those resources now? Are you able to maximize those 
resources to deal with the present conditions of the Southern 
Border in particular?
    Chief Fisher. To your first part, no, we probably don't 
have enough of those resources.
    To the second part, I don't think that we are maximizing to 
the extent that we need to all of those capabilities, which is 
a common theme within our strategy now.
    Ms. Jackson Lee. So, the strategy is going to utilize or to 
improve on personnel. Is that correct?
    Chief Fisher. It will, yes, ma'am.
    Ms. Jackson Lee. But, also, if we were to provide you with 
resources, you would add to the equipment. Is that what I am 
understanding?
    Chief Fisher. That is correct, yes.
    Ms. Jackson Lee. But you believe you have the territorial 
range to be able to do your job?
    Chief Fisher. At this point--and that is part of the 
implementation plan, where I am asking the field leaders to 
assess what they have based on these new objectives. I think it 
is important; I am glad you raised that point, Congresswoman. 
Because I don't want to leave the impression nor in some of the 
reports that I have seen that suggest that this strategy does 
not require additional resources. It may. But what we are doing 
now is taking a look at the resources that we do have. No. 1, 
are we maximizing the capability of all of those resources? No. 
2, do we have them in the right locations against the emerging 
threats?
    That is a process that we are looking at within the 
implementation. It may be coming back to this committee say, 
here is the gap--it may be in technology, it may be in other 
resources--that we will continue to do as an evolution process 
like any other strategy.
    Ms. Jackson Lee. So we can expect a report forthcoming? As 
you analyze, you will be reporting back to Congress?
    Chief Fisher. Right, we will be--and we are in the phase 
right now, have been for the last few months, we are 
transitioning from the strategic----
    Ms. Jackson Lee. That is fine.
    Chief Fisher. Yes, ma'am.
    Ms. Jackson Lee. All right. The other thing that I will ask 
is that the regional territory that you are working with now on 
the border, that is the territory that you feel comfortable in 
working in?
    Chief Fisher. Yes.
    Ms. Jackson Lee. All right.
    Let me just indicate that the chief has already said that 
he has strengthened relationships with Federal, local, Tribal, 
and international partners, which I think is good. That is part 
of your strategy. I would hope, as we listen to the chief going 
forward, that we be particularly sensitive on any attempt to 
expand the area of control into Federal lands 100 miles in 
without listening to the work of the Border Patrol, Customs and 
Border Protection, and others that are dealing with this. I am 
quite concerned that we not listen to the report that may be 
forthcoming. I think the strategy is effective in its 
collaborative efforts. I think it is effective in its 
assessment efforts. I think it is important to do so.
    I would ask the last question to Ms. Gambler. Are you 
comfortable with the 2012 Strategy from the perspective of 
assessment? Do you have any sense that there is a need to 
expand the range into Federal lands for the Customs and Border 
Protection and Border Patrol?
    Ms. Gambler. I think your question is really getting at, in 
part, how well the Border Patrol coordinates with other 
agencies that have some border security responsibilities. We 
have reported in the past that CBPM, the Department, and Border 
Patrol have made progress in those coordinating mechanisms and 
in partnerships but that there was a need for some additional 
oversight, including additional oversight in how the Border 
Patrol coordinates with agencies that do have some 
responsibilities for border security on Federal lands.
    Ms. Jackson Lee. Let me just conclude, Madam Chairwoman--
thank you for the time--and just indicate that, at this point, 
I would be quite concerned about any legislation suggestion 
that is countering the strategic plan and asking Congress to 
extend the jurisdiction of the Border Patrol hundreds of miles 
inland and, particularly, suggesting that they be in the 
Federal lands at this point without a complete strategic report 
and analysis by DHS and the Border Patrol, Customs and Border 
Protection of the United States.
    Let me thank you very much, and I will yield back my time.
    Mrs. Miller. I thank the gentlelady.
    I certainly want to thank the witnesses for all their 
testimony today. I think it has been a very informative 
hearing. As has been said here I think by all of the Members, 
we look forward to working with all of you, particularly you, 
Chief, with the unbelievable mission that we have tasked your 
agency with. We want to make sure that you do get the resources 
and the training and the availability.
    Again, we are operating under a very tight, constrained 
budget environment here, but at the same time, border security 
is something that the American people have made very clear they 
have the political will to do so, and they are looking for the 
Congress to do that as well.
    So we appreciate all of you being here, and I appreciate 
all of the Members' participation----
    Ms. Jackson Lee. Madam Chairwoman?
    Mrs. Miller [continuing]. Today.
    The hearing record is going to be held open for 10 days if 
there are any other questions from any other Members.
    The gentlelady from Texas.
    Ms. Jackson Lee. I would like to submit into the record an 
article from the Houston Chronicle by Tony Freemantle regarding 
border security.
    Mrs. Miller. Without objection, so ordered.
    Ms. Jackson Lee. Thank you.
    [The information follows:]
    Some See Border Security Bill As Threat To Ecology, Preservation
By Tony Freemantle 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Big Bend National Park is one of the U.S. parks that could be affected 
by a proposed law that would allow the Department of Homeland Security 
to assume control of all Federal land within 100 miles of Mexico and 
Canada. Photo: Tony Freemantle/HC.

                           HOUSTON AND TEXAS

    Imagine sitting on a rock at Big Bend National Park gazing out over 
the Rio Grande at the Santa Elena Canyon on a clear day, Mexico so 
close you could reach out and touch it. Immemorial silence cloaks the 
soaring cliffs, broken only by the caw of a raven above and the rustle 
of the reeds in the river.
    Then imagine the buzzy whine of a Customs and Border Protection 
four-wheeler patrolling the sandy banks, or the growl of a grader 
carving a road into the Chihuahuan Desert to a forward operating base, 
or a Government helicopter bristling with surveillance equipment 
hovering overhead.
    Hard to imagine?
    A bill making its way through Congress would, in the interests of 
National security, bequeath to the Department of Homeland Security 
complete control of all Federal lands in a coast-to-coast zone 100 
miles south of the Canadian border and 100 miles north of the Mexican 
border from California to the Gulf of Mexico.
    The bill, sponsored by U.S. Rep. Rob Bishop of Utah with strong 
Republican support, is being touted as a necessary step in securing the 
Nation's borders. But it is also being roundly condemned as a thinly 
veiled attempt to ``gut a century's worth'' of environmental laws aimed 
at preserving public lands, historic sites, and National monuments.
    In essence, the National Security and Federal Lands Protection Act 
gives DHS, or more specifically U.S. Customs and Border Protection, 
authority to build fences, roads, and operating bases, to use aircraft 
and to install surveillance equipment and sensors in some of the most 
pristine, environmentally sensitive lands in the Nation--including Big 
Bend and Guadalupe National Parks and Padre Island National Seashore in 
Texas.
    And to clear the way for its stewardship of public lands, the 
agency would be exempt from compliance with more than 30 environmental 
laws--among them the National Environmental Protection Act, the 
Endangered Species Act, the Clean Air Act, and the Safe Drinking Water 
Act.
    The bill has cleared committees in the House and is on the calendar 
for a vote on the floor. There is not yet a companion bill in the 
Senate.

                         ``REALLY UNNECESSARY''

    Bishop and the other sponsors, including Texas Rep. Lamar Smith, 
argue that CBP's mandate to secure the Nation's borders is being 
``thwarted'' by the need to consult with and obtain permission from 
Federal land managers--chiefly the Department of the Interior and the 
Department of Agriculture--before conducting operations.
    ``The nonpartisan Government Accountability Office has found that 
less than half of the U.S.-Mexico border is under the operational 
control of the Border Patrol,'' Smith said in a statement. ``At the 
same time, the Obama Administration prevents the Border Patrol from 
accessing Federal lands in the name of environmental preservation. 
Because the Border Patrol is prohibited from securing Federal lands, 
drug smugglers and human traffickers trample the earth and terrorize 
communities.''
    Opponents, including the Department of the Interior, CBP, and 
National environmental organizations, charge that the proposed 
legislation is an ``overreach,'' since a 2006 memorandum of 
understanding between border security agencies and Federal land mangers 
already establishes the framework for cooperation between them.
    ``This is a solution looking for a problem,'' said Dan Millis, 
borderlands program coordinator for the Sierra Club. ``There is already 
a framework in place for Border Patrol to work with public land 
management. If Border Patrol doesn't even have to try to work with 
managers, we will see a huge proliferation of roads, forward operating 
bases and fences on public lands.''
    The Coalition of National Parks Retirees is more blunt. The 
legislation would ``gut a century's worth of land protection'' laws and 
open up ``millions of pristine acres of National parks'' to unregulated 
intrusion.
    ``It's a really, really unnecessary bill,'' said Joan Anzelmo, a 
former superintendent of the Colorado National Monuments and board 
member of the organization. ``It's an incredible assault on our 
National parks.''

                              OTHER PARKS

    In addition to Big Bend and Guadalupe parks in Texas, some of the 
other Federal lands that fall within the 100-mile security zone, and 
hence under control of DHS, include Saguaro National Park in Arizona, 
Joshua Tree National Park in California, Olympic National Park in 
Washington, Glacier National Park in Montana, Boundary Waters 
Wilderness in Minnesota and Acadia National Park in Maine.
    Bishop believes his bill will end a ``turf war'' between Border 
Patrol and Federal land mangers who use environmental laws to block 
efforts to secure the Nation's borders.
    ``What I want to do is get the Border Patrol what they need to 
secure the border,'' Bishop said, ``and they tell me that what they 
need more than money and people is access. There are enormous swaths of 
public land that have effectively been ceded over to the drug 
cartels.''
    The DHS already has been granted waivers from a slew of 
environmental laws in order to build the controversial ``fence'' along 
certain sections of the U.S.-Mexico border, which environmentalists 
charge has already cause significant damage to Organ Pipe Cactus 
National Monument in Arizona and to the Lower Rio Grande Valley 
National Wildlife Refuge in South Texas.
    Giving control of all lands within 100 miles of the borders to a 
single agency is unnecessary, they argue, and poses a significant 
danger.
    ``This is worse than misguided policy, although it is certainly 
misguided,'' said Kevin Dahl, the Arizona project manager for the 
National Parks Conservation Association. ``It's a real danger to the 
parks because it means that the people who have made a career of public 
land management are not in control.''

    Mrs. Miller. With that, the subcommittee will stand 
adjourned. Thank you.
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
